Appendix

TABLE OF CONTENTS
Order Granting Stay, State of Florida v. Sec’y, Dep’t of Health &
Human Servs., No. 21-12243 (11th Cir. July 17, 2021) ................................. App. 1
Order Denying Stay, State of Florida v. Becerra,
No. 8:21-cv-839 (M.D. Fla. July 7, 2021) ........................................................ App. 2
Order Granting Preliminary Injunction, State of Florida v. Becerra,
No. 8:21-cv-839 (M.D. Fla. June 18, 2021) ..................................................... App. 5

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 21-12243-D
________________________
STATE OF FLORIDA,
Plaintiff - Appellee,
versus
SECRETARY, DEPARTMENT OF HEALTH AND HUMAN SERVICES,
HEALTH AND HUMAN SERVICES,
DIRECTOR OF THE CENTERS FOR DISEASE CONTROL AND PREVENTION,
CENTER FOR DISEASE CONTROL AND PREVENTION,
UNITED STATES OF AMERICA,
Defendants - Appellants.
________________________
Appeal from the United States District Court
for the Middle District of Florida
________________________
Before: WILSON, JILL PRYOR, and BRANCH, Circuit Judges.
BY THE COURT:
nsitive Motion for Stay Pending Appeal and
, as Appellants have made the requisite
showing. See Nken v. Holder, 556 U.S. 418, 434 (2009). One judge dissents; opinions will
follow.

App. 1

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
STATE OF FLORIDA,
Plaintiff,
v.

CASE NO. 8:21-cv-839-T-23AAS

XAVIER BECERRA, et al.,
Defendants.
__________________________________/
ORDER
CDC moves (Doc. 96) for a stay pending appeal from a preliminary injunction
(Doc. 91). CDC designates th

Assuming either Florida or

CDC will move immediately in the Eleventh Circuit for a review of this order and to
inary injunction becomes effective on
s to brief and for the Eleventh Circuit to resolve the

With some marginal elaboration and a new affidavit not otherwise in the
record, CDC in the present motion rehearses the arguments advanced unsuccessfully

remain unpersuasive. CDC remains dismissive of the requirements of the
Administrative Procedure Act, remains dismissive of the manifest disjunction
between the statute granting CDC authority and the authority CDC purports to

App. 2

exercise over the cruise industry, remains dismissive of state and local health
regulation and dismissive of the cruise indu
voluntary cessation of cruise ship operation when COVID-19 appeared in early
2020), remains dismissive of successful cruise ship operation elsewhere in the world,
and surprisingly remains studiedly dismissive of the opportunity, afforded in the
preliminary injunction, for CDC to propose an alternative injunction that preserves

and justified by reliable data (that is, data that CDC will disclose, unlike the
undisclosed CDC data that speculates about the effect of COVID-19 aboard a cruise
ship and on which CDC relies to impose the disputed regulatory regime).
ils for the reasons elaborated in the
preliminary injunction to show a likelihood of success on appeal, and CDC fails to
demonstrate that denial of the stay will injure materially CDC or the United States,
any third party, or the public. Although CDC invariably garnishes the argument
VID-19 aboard a cruise vessel, these dark
allusions dismiss state and local health authorities, the in
the thorough and costly preparations and accommodations by all concerned to avoid
one occurs. In
other words, CDC can show no factor that outweighs the need to conclude an
unwarranted and unprecedented exercise of governmental power. More to the point,
this action is not about what health precautions against COVID-19 are necessary or

-2-

App. 3

helpful aboard a cruise ship; this action is about the use and misuse of governmental
power.
The preliminary injunction finds that in the present scheme regulating the
cruise ship industry CDC has acted athwart the Administrative Procedure Act and
exercised authority not granted to CDC by
serve to extend the unwarranted, unprecedented, and
injurious exercise of governmental power
DENIED.
ORDERED in Tampa, Florida, on July 7, 2021.

-3-

App. 4

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
STATE OF FLORIDA,
Plaintiff,
v.

CASE NO. 8:21-cv-839-SDM-AAS

XAVIER BECERRA, et al.,
Defendants.
__________________________________/
ORDER
In response to incidents of COVID-19 infection aboard cruise and naval
vessels in early 2020, the Centers for Disease Control and Prevention (CDC) issued
that halted the cr

eration from March

2020 through October 2020. Effective Oct
is to safely re-open the cruise industry

In this action Florida asserts five claims. In Count I, Florida alleges
that the conditional sailing
a alleges that CDC acted arbitrarily and
capriciously in issuing the conditional sailing order. Specifically, Florida argues in
Count II that CDC failed to recognize the prevalence of vaccines, the success of
foreign sailing, the effectiveness of COVID-19 mitigation measures, and the
opportunities revealed by evolving public

App. 5

counsel against the restrictions imposed by the conditional sailing order.
Also, Florida argues in Count II that CDC arbitrarily fa
the cruise industry differently from other industries, and
ignored local health measures. (Doc. 1 at

Florida alleges that

CDC unreasonably delayed agency

w the cruise industry to
t IV, Florida alleges that CDC failed to

conduct proper notice and comment rulemaki
under 5 U.S.C. § 553(b)(B). Finally, in
Count V, Florida alleges that if interpreted according to CDC the enabling statute,
42 U.S.C. § 264, on which CDC relies, effects an unconstitutional delegation of
legislative authority. (Doc. 1 at 20) Facing an allegedly irreparable injury, Florida
moves (Doc. 25) for a preliminary injunction.
Citing four broad arguments, CDC opposes a preliminary injunction. First,
CDC argues that Florida lacks standing because the conditional sailing order
regulates cruises, not states. Second, CDC argues that Florida cannot establish
irreparable harm because Florida began this action months after CDC issued the
sailing order and that, because cruises can sail by mid-summer, Florida cannot
establish an imminent and irreparable injury. Third, CDC contends the conditional
and regulatory authority. Fourth, CDC
contends that the conditiona
the extraordinary deference due to [CDC]
during the ongoing public heal
-2-

App. 6

future COVID-19 infections aboard cruises decisively outweighs any economic
injury to Florida.
BACKGROUND
Since early in 2020 COVID-19 reportedly has killed more than half a million
Americans and has caused millions to become unemployed. In response to the
discovery of COVID-19 aboard several cruise ships and naval vessels in early 2020,
the Cruise Line International Association, a trade group including 95% of the cruise
industry, on March 13, 2020, voluntarily ceased cruise ship operation. (Doc. 1-3
at 9; Doc. 31 at 2) On March 14, 2020, CDC issued a no-sail order that halted the

(Doc. 1-4 at 7) CDC extended the no-sail order on April 15, 2020; July 16, 2020;
and September 30, 2020. The last extension of the no-sail order expired October 31,
2020. (Docs. 1-5, 1-6, and 1-7)
On July 20, 2020, during the second extension of the no-sail order, CDC

resumption of cruise ship operation. 85 Fed. Reg. 44083 (2020); (Doc. 1-3 at 14).
The request prompted about thirteen thousand responses in the allowed sixty-days,
which ended about six weeks before CDC issued the conditional sailing order.
comments, CDC never
responded to the comments, chose to issue the conditional sailing order under the

-3-

App. 7

to delay the effective date of the order.1
A. The Conditional Sailing Order
On October 30, 2020, CDC issued the conditional sailing order. Framework for
Conditional Sailing and Initial Phase COVID-19 Testing Requirements for Protection of
Crew. (Doc. 1-3); 85 Fed. Reg. 70153 (2021). The conditional sailing order opens by
read rapidly around the world with no
U.S. Food and Drug Administration auth
evidence gathered and explaine

sailing order continued to restrict cruise ship2 travel despite the measures, such
by prominent cruise companies and top
health experts3 employed by cruise companies to address COVID-19. (Doc. 1-3

1
the event that this Order qualifies as a rule
under the APA, notice and comment and a delay in effective date are not required because CDC has
already obtained public comment and good cause
sailing order further states that, if the order qual

rrying vessel operating in U.S. waters with
the capacity to carry 250 or more individuals . . . with an itinerary anticipating an overnight stay
2

interstate or intrastate waterw
3

The Healthy Sail Panel developed recommendations for safely resuming sailing. Also, the

Council and Carnival Corporation to address COVID-19 protocols and safety measures. (Doc. 1-3
at 14)

-4-

App. 8

Disclaiming that the conditional sailing order constitutes a rule under the
APA (Doc. 1-3 at 19) and incorporating by reference the earlier no-sail orders, the

(NSO) on October 31, 2020, CDC will take a phased approach to resuming cruise
ship passenger operations in
order requires the completion of four phases before a vessel again qualifies to sail
phases are subject to change based on public health
the conditional sailing order explains (in
onal orders as needed that will be
published in the Federal Register and technical instructions that will be subsequently
oc. 3-1 at 3, 21, 28, 34)
1. The Four Phases
Phase one obligates a cruise ship operator to build a laboratory aboard
each vessel for testing crew members. In phase two, a cruise ship operator must
undertake for each cruise ship a simulated voyage designed to evaluate the cruise

However, before beginning a

d voyage, the cruise ship

operator must obtain, and
ealth care providers and the port authority in each port-

-5-

App. 9

of-call to ensure adequate logistics and care if COVID-19 appears aboard a ship in
transit.4
ditional sailing certific
cruise ship operator undertakes a restricted passenger voyage. During this phase,
a cruise ship operator must apply for a
calendar days prior to the date on which the cruise ship operator proposes to
commence restricted passenger
of a criminal penalty imposed by 18 U.S.C. § 1001, the application must include the
station to, among other things

After CDC review, even if CDC awards the operator a conditional sailing certificate,

revoke the certificate altogether. (Doc. 1-3 at 30, 35) A cruise ship operator
can appeal the denial of a certificate or can attempt to modify the conditions of a
certificate by submitting the proposed modification to CDC. (Doc. 1-3 at 32, 36)
Finally, for operators with a conditional sailing certificate, phase four permits
to several salient strictures, including a
seven-day limitation on each voyage. (Doc. 1-3) The conditional sailing order
describes other requirements beyond the four-phased approach, and the conditional
sailing order explains that

4

The parties commonly designate this requir

-6-

App. 10

success in employing the
mitigation measures specified in the conditional sailing order, including shoreside
laboratory screening of crew, on-board testing capabilities for symptomatic travelers,
sustained compliance with

plans, and the frequent

monitoring and reporting of conditions onboard. (Doc. 1-3 at 17) In other words,
completion of the four phases, CDC retains unrestricted
discretion to further condition or even suspend the conditional sailing certificate and
to issue additional and different technical guidance.
2. The Conditional Sailing Orde
Justifications
The feasible timeline for a cruise comp

e four phases is

unknown but certainly protracted. (As of today, few vessels have completed the four
phases.) The conditional sailing order remains effective until the earliest of (1) the
expiration of the HHS Secret

health emergency, (2) the

rescission or modification of the order by the CDC director, or (3) November 1,
2021 (at which time CDC might renew the conditional sailing order or issue a
replacement order with additional and different requirements). In other words,
assuming maintenance of the status quo, the conditional sailing order likely, almost
certainly, will remain in effect for a year after the October 2020 issuance of the
conditional sailing order, that is, the cruise industry will have remained subject to
the series of no-sail orders and the conditional sail order for more than nineteen

-7-

App. 11

ll remain subject to renewal (presumably

s Implementation and Guidance
After issuance of the conditional sailing order, several uncertain and
distressed cruise companies and public officials began to complain because CDC
issued virtually no implementing instructions for beginning the simulated voyages
and no cruise company was authorized to begin a phase two simulated voyage. And
even after CDC issued new guidance on April 2, 2021, cruise executives, state
officials, and others criticized the guidance as impractical.
For example, the Cruise Lines International Association reports that the
April 2, 2021 guidance imposes requiremen
unworkable, and seem to reflect a zero-risk objective rather than the mitigation
approach to COVID that is the basis for ev
(Doc. 45-9 at 2; Doc. 45-10 at 6; Doc. 45-28 at 3) Concerned about losing another
summer sailing season, some cruise companies threatened to leave the United
nment on what it will take
to restart cruising from the [United States].

5) But as of April 2021, more than six
months after issuance of the conditional
uise lines remained stuck

-8-

App. 12

on for a Preliminary Injunction, and
Recent Developments

for the summer season,
Florida sued six days later and moved for preliminary injunction. (Doc. 56 at 2)
onse to the motion for preliminary
injunction was due, CDC issued technical
instructions for how cruise ship operators may test their health and safety protocols
in U.S. waters through simulated voyages, including the requirements for simulated
voyages, guidance for CDC inspections, and operational procedures for risk
mitigation on simulated and restricted
ip operators now have all the necessary
(Doc. 31 at 11) Further,
of passenger operations

ional sailing order, the letter offers
llowance for a cruise ship to avoid the
requirement of a simulated voyage if a cruise

ninety-eight percent

fully vaccinated and the passengers, including children twelve and under, are ninetyfive percent fully vaccinated. (Doc. 46-3 at 5)
Commenting on the May 5 technica

-9-

App. 13

ships could sail from the United States this summer beca

CDC has frequently updated the technical instructions and published new guidance
for complying with the conditional sailing order. (Doc. 72 at 5) CDC supposedly
] burdens or alleviate[] restrictions on
5

(Doc. 72

at 5; Doc. 72-1) But CDC retains the di
requirements through technical instructions or orders relating to a cruise ship

As of June 4, 2021, CDC had approved port agreements for twenty-two ships.
CDC has scheduled only nine ships to begin simulated voyages. Although two
simulated voyages are predicted to begin on June 20, 2021, most of the simulated
voyages begin in July or August. Of the estimated fifty-nine eligible cruise ships,
only two ships have received conditional sailing certificates
5

n of COVID-19 among cruise ship

discretionary considerations for ships with at

https://www.cdc.gov/quarantine/cruise/index.html

- 10 -

App. 14

ships that satisfied the 98
full-vaccination option mentioned earlier. (Doc. 31 at 9; Doc. 72 at 5) One of those
two ships can begin restricted sailing no earlier than June 26, 2021. The other ship
can begin restricted sailing no earlier than July
other cruise ships remain in the condit
C. Litigation Status
After an initial hearing (Doc. 44) on
injunction, a May 18, 2021 order (Doc. 51) referred this action to mediation.
In the meantime, Alaska and Texas moved (Docs. 26, 68) to intervene in this
action. Arguing, among other reasons, that Alaska and Texas lack standing to
intervene, CDC opposes (Docs. 57, 83) the motions to interven

CDC submits a supplemental brief (Doc. 72) to report that on May 24,
2021, Congress passed the Alaska Tourism Restoration Act, which CDC contends

progress through the conditional sailing orde
submits a supplemental brief (Doc. 82) in response. After a hearing (Doc. 84) on the
supplemental briefs and after the mediator declared an
motion for a preliminary injunction is ripe for determination.

- 11 -

App. 15

STANDING
Article III of the United States Constitution limits the jurisdiction of a federal
court to an actual, perceptible, and existing case or controversy. To present a
justiciable case or controversy for a preliminary injunction, a plaintiff must establish
Winter v. Nat. Res. Def. Council,
Inc., 555 U.S. 7, 22 (2008). Confusion about standing is widespread. William
Fletcher, The Structure of Standing, 98 YALE L.J.
standing law in the federal courts has long been criticized as in
this confusion, certain principles of standing appear reasonably clear and permit a
Bochese v. Town of
Ponce Inlet, 405 F.3d 964, 974 (11th Cir. 2005).
First, Article III imposes constituti
to show an injury-in-fact that is both fairly traceable
to an act of a defendant and redressable by a favorable judicial decision. Lujan v.
Spokeo, Inc. v. Robins, 136 S. Ct.

Defenders of Wildlife

1540, 1547 (2016). Second, a plaintiff must sue to vindicate an in
regulated by the statute or constitutional guar
Processing Serv. Organizations, Inc. v. Camp, 397 U.S. 150, 153 (1970). Here, CDC

establish Article III standing. (Doc. 31 at 13) Further, CDC argues that Florida fails
to assert a justiciable APA claim in Counts I through IV be

- 12 -

App. 16

the Public Health Service Act. (Doc. 31

A. Article III Standing
1. Injury-in-Fact
If requesting an injunction, a plaintiff must establish an immediate danger of

es the plaintiff to establish
City of Los Angeles v. Lyons, 461
U.S. 95, 102 (1983). A future injury qualif

the plaintiff faces a

ffering the alleged injury. Sierra v. City of Hallandale
Beach, Fla., 2021 WL 1799848, at *2 (11th Cir. 2021) (quoting Koziara v. City of
Casselberry, 392 F.3d 1302 (11th Cir. 2004)).
Whether a sufficient likelihood exists that a state will suffer an imminent
injury depends on the capacity under which the state sues. Erwin Chemerinsky,
Federal Jurisdiction 125 (8th Ed. 2021)

be drawn between

a government entity suing to remedy injuries it has suffered and suing in a
representative capacity on behalf of its ci

nnot sue as a nominal
Pennsylvania v. New Jersey,

426 U.S. 660, 665 (1976). Rather, a state can sue to prevent either of two types of
injury. First, a state can sue to prevent an imminent in
health or economic welfar
Second, a state can sue to prevent a direct inju
- 13 -

App. 17

interest. Alfred L. Snapp & Son, Inc. v. Puerto Rico, ex rel., Barez
(1982); Chiles v. Thornburgh, 865 F.2d 1197, 1208 (11th Cir. 1989) (distinguishing
d a direct injury).
s] standing to protect
RIGHT & MILLER, FED. PRAC. &

PROC

States (3d ed. 20

interests that are the same as a similarly situated private proprietor. Alfred L. Snapp,
458 U.S. at 601. For example, a state maintains an interest in collecting money,
including taxes. Wyoming v. Oklahoma

Air All.

, 906 F.3d 1049, 1059 (D.C. Cir. 2018); California v. Azar,
Cir. 2018). Here, Florida bases standing on three
financial injuries.
First, Florida asserts that the conditional sailing order forces Florida to spend
millions of dollars more than usual on state unemployment benefits. A declarant
Opportunity reports
that since the start of the COVID-19 pandemic, Florida has paid about $20 million in

- 14 -

App. 18

In comparison, Florida typically pays less than $500,000 annually in state benefits
attributable to lost cruise-industry jobs.6 (Doc. 45-19 at 2)
Second, Florida claims that since the start of the COVID-19 pandemic
s of dollars. (Doc. 45-26) Florida insists
that at least part of the loss results directly from the shutdown of the cruise industry,
which accounts for a major share of Florid
Doc. 45-21 at 25; Doc. 45-22 at 9; Doc. 45-23 at 23; Doc. 45-24)
Third, Florida claims a loss of tax revenue directly attributable to the
shutdown of the cruise industry in Florida. (Doc. 25 at 22) For example, Florida
attaches reports analyzing the economic activity of several ports and detailing state
tax revenue derived from the cruise industry. (Docs. 45-20, 21, 22, 23) These
economic reports suggest that in a typical year Florida collects millions of dollars in
state taxes from the cruise industry. (Doc. 45-20 at 44; Doc. 45-21 at 29; Doc. 45-22
at 10; Doc. 45-23 at 36; Doc. 45-24 at
nued closure of the cruise industry will result in an

(Doc. 45-25 at 3)

CDC argues that Florida disregards federal reimbursement for state unemployment
payments. But the American Rescue Plan of 2021, Pub. L. No. 117-2 § 9017, reimburses a state for
to a limited type of unemployment spending.
f (until September 2021), and Florida attests
6

accounts for federal reimbursement.

- 15 -

App. 19

anding. (Doc. 31 at 14) (quoting El Paso Cty.,
Texas v. Trump, 982 F.3d 332, 339 (5th Cir. 2020)). Also, CDC argues that Florida
fails to allege a concrete and imminent injury. (Doc. 31 at 15) CDC posits that
conditional sailing order,

possibility of a summer

se industry can comply with the

conditional sailing order, CDC claims that any risk of future injury rests within the
control of the cruise industry. (Doc. 31 at 15)
s argument is finally unpersuasive.
establishing an economic injury attributable to
increased unemployment spending for former cruise industry employees, some of

recover from harms that could have been prevented absent [agency action] are
that is incurred by

Air All.

Houston, 906 F.3d at 1059. And Florida alleges an ongoing economic injury to ports,
which Florida maintains a sovereign and proprietary interest in protecting because
ports are political subdivisions of the state. Title 22
Statutes; Alabama v. U.S. Army Corps of Engineers, 424 F.3d 1117, 1130 (11th Cir.
2005); State of Kan. v. United States, 16 F.3d 436, 439 (D.C. Cir. 1994) (holding that a

Chiles v. Thornburgh, 865 F.2d 1197, 1208 (11th Cir.
- 16 -

App. 20

sue in its sovereign capacity when it has suffered an economic in
relying on lost tax revenue, Florida alleges a cognizable injury owing to lost tax
revenue directly attributable to

Wyoming v. Oklahoma,

502 U.S. 437, 448 (1992) (affir
the form of a loss of sp
Although the conditional sailing order
a phased resumption of cruise ship passen
Florida persuasively claims that the conditional sailing order will shut down most
cruises through the summer and perhaps much longer. Koziara, 392 F.3d at 1305.7
orida persuasively
projection for the resumption of sailing
of delay, such as the unexplained six-month delay until April 2, 2021, in issuing
technical guidance, finally available just eight weeks before CDC claims the cruise
industry can sail. (Doc. 1-7 at 11, 17; Doc. 46-1 at 21) And CDC presumably
as vaccines further proliferate. (Doc. 46-1 at 26;
Doc. 46-3; 46-4 at 14) As of April 26, 2021, twenty percent of cruises remained in
e cruise industry tried to comply with
, which Florida convincingly argues

7
CDC resists providing a reliable and steady timeline for resuming cruises. At a March 18,
2021 Senate Committee hearing, Senator Lisa Murkowski asked the CDC director to provide a

Transportation, OMB, there are numerous others that

- 17 -

App. 21

approving a cruise to sail, CDC retains the discretion to revoke a conditional sailing
certificate, which appears likely (at least for some cruise
dard for intervening during a COVID-19
11) Florida understandably claims that
8

(Doc. 56 at 5, 7)

In sum, Florida establishes a strong likelihood that many or almost all cruise
ships will remain unable to sail for the entire summer season.9 And each day the
cruise industry faces uncertainty about when cruises can resume, Florida not only
suffers a concrete economic injury resulting from reduced revenue and increased
unemployment spending, but Florida faces (Doc. 45-17; Doc. 45-28; Doc. 45-29) an
increasingly threatening and imminent prospect that the cruise industry will depart
) The dislocation of all or most of an
entire industry subjects Florida to a protracted or permanent loss of revenue from

8

S.B. 2006 (Fla. 2021), prohibiting so-called

definitively impede ships from resuming operation. 15 MOORE S FEDERAL PRACTICE, Civil
§ 101.41, 101-122.17 (2020). S.B. 2006 neither explicitly applies to federal regulation nor necessarily
prohibits passengers from volunteering information about vaccination status when deciding the
proportion of vaccinated and unvaccinated passengers a cruise can accommodate under federal law.
(Doc. 31-4)
9

After CDC published the May 5, 2021 technical guidance (Docs. 31-4; 31-5), Norwegian
I seriously doubt we will be able to stand up a vessel out of a U.S. port
in July. August is also in jeopardy
guidelines from the CDC . . . . What we received yesterday was
anything but a clear path to restarting.

https://www.cnbc.com/2021/05/06/norwegian-cruise-ceo-says-us-ships-are-unlikely-to-sail-thissummer.html.

- 18 -

App. 22

ries, the benefits of which insinuate themselves into the
Alfred L. Snapp, 458 U.S. at
st in its citizens participating in an
industry). Florida faces a sufficient likelihood of continued economic harm to
establish a concrete and imminent injury-in-fact. Salcedo v. Hanna, 936 F.3d 1162,

2. Causation and Redressability

sailing order and that a favorable judicial decision can
likely redress the injury. Lujan, 504 U.S. at 560; Carpenters Indus. Council v. Zinke,
ion and redressability typically overlap
action causes an injury,
enjoining the action usually
injury results not from the conditional
decisions of third parties, like cruise li
Specifically, CDC argues that

rom the performance of the

cruise ship operators, tour
CDC claims that Florida fails to connect
the alleged injury to the conditional sailing order. (Doc. 31 at 16) (citing XY Planning
Network LLC v. SEC, 963 F.3d 244 (2d Cir. 2020)).

- 19 -

App. 23

establish standing by showing that the conditional sailing order accounts for some of,
or aggravates, Flor

Attias v. Carefirst, Inc., 865 F.3d 620, 629 (D.C. Cir.

2017); Const. Party of Pennsylvania v. Aichele, 757 F.3d 347, 366 (3d Cir. 2014);
Libertarian Party of Virginia v. Judd, 718 F.3d 308, 316 (4th Cir. 2013); Barnum Timber
Co. v. U.S. E.P.A., 633 F.3d 894, 901 (9th Cir. 2011); Comer v. Murphy Oil USA, 585
F.3d 855, 866 (5th Cir. 2009). Here, the conditional sailing order regulates a third

Wilderness Soc. v. Griles, 824 F.2d 4 (D.C. Cir. 1987);
injury complained of is the result

Bennett v. Spear

of independent action of some third party not before the court . . . that does not
exclude injury produced by determinative or coercive effect upon the action of

regulated (or regulable) th

Lujan,

504 U.S. at 562; Lewis v. Governor of Alabama, 896 F.3d 1282 (11th Cir. 2018) (holding

Citing the success of foreign cruise lines, Florida shows that thousands of
passengers, including Floridians, have sailed on cruise ships abroad. (Doc. 45-9;

measured plan for relaxing restrictions, distributing vaccines, and installing COVID19 safety protocols, Florida now experiences renewed demand for sailing (among
many other things). (Doc. 45-3; Doc. 45-25; Doc. 45-29; Doc. 46-1; Doc. 56 at 4,
- 20 -

App. 24

n to the contrary, no reasonable basis exists to believe
that without the conditional sailing order the cruise industry will refrain from sailing
(if the industry will not sail, removing the conditional sailing order is harmless).
, 139 S. Ct. 2551, 2566, 204 L. Ed. 2d 978 (2019) (holding
that a plaintiff satisfies caus

table effect of Government

action on decisions of third
the conditional sailing order necessarily harms Florida by inhibiting the full
resumption of, and the expected
future injury is fairly traceable to the conditional sailing order. Bennett, 520 U.S.
id, it does not suffice if the injury complained of is the
result of the independent action of some third party not before the court, that does
not exclude injury produced by determinative or coercive effect upon the action of
Nw. Requirements Utilities v. F.E.R.C., 798 F.3d 796, 806 (9th Cir.
2015) (finding causation if a third pa
necessarily injures the plaintiff).
CDC argues that a favorable decision

means as little as

operations manual for simulated and restricted voyages requires cruises to continue
- 21 -

App. 25

10

Florida describes voluntary

precautions, including testing, distancing, and ventilation, that the cruise industry
and Florida ports have instituted to mitigate COVID-19, which steadily subsides
with the rapid administration of vaccines, abundantly and readily available in
C admits that the wide availability of
fe resumption of pass
(Doc. 46-1 at 26) (CDC admits to never evaluating the efficacy of the measures
instituted locally.) Because the cruise industry worldwide has developed and
deployed precautions to combat COVID-19 and to contain any infection, no
reasonable basis exists to believe that Florida faces a greater or equivalent injury if
sailing resumes. And a decision favorable to Florida, enjoining all or part of the
conditional sailing order, will allow cruises to sail more quickly and will mitigate
ry, including the plausible and imminent
prospect of the cruise indu

Massachusetts v. E.P.A., 549 U.S.

497 (2007) (citing Larson v. Valente, 456 U.S. 228, 244, n.15
satisfies the redressability requirement when he shows that a favorable decision will
relieve a discrete injury to himself. He need not show that a favorable decision will
OORE S FEDERAL PRACTICE,

Civil § 101.42 (2020).

10

https://www.cdc.gov/quarantine/cruise/Covid19-operations-manual-cso.html#vsp-2018operations-manual

- 22 -

App. 26

Florida suffers an immediate danger of a continuing injury fairly traceable to
the conditional sailing order and redressable if an order enjoins all or part of the
conditional sailing order. In sum, Florid

rsonal stake in the

outcome of the controversy as to assure that concrete adverseness which sharpens
the presentation

Baker v. Carr, 369 U.S. 186, 204 (1962).11

B. Statutory Standing
In addition to Article III standing, in an APA action Florida must establish
plaintiffs whose in

Control Components, Inc., 572 U.S. 118, 129 (2014). CDC argues that Florida cannot
establish statutory standing for an APA cl

injury falls outside
ic Health Service Act and the regulations

promulgated under the Public Health Service Act. CDC contends that, rather than
Section 264(a) prot
a vessel. (Doc. 31 at 22)
But a plaintiff suing under the APA must
within the zone of interests [] protected or regulated by
claims the defendant violated.
Indians v. Patchak, 567 U.S. 209 (2012) (quoting
Inc. v. Camp, 397 U.S. 150, 153 (1970)). Because Congress enacted the APA to

11
Because Florida sues to prevent financial injury, third-party standing is inapplicable.
Kowalski v. Tesmer, 543 U.S. 125, 129 (2004).

- 23 -

App. 27

enable judicial review of agency action, establishing statutory standing for an APA
Lexmark,
the test to indicate that the benefit of
any doubt goes to the

Clarke v. Securities Indus. Assn., 479 U.S. 388,

399 (1987). A plaintiff fails to establish
interests are so marginally related or inconsistent with the purposes implicit in the
statute that it cannot reasonably be assumed that Congress intended to permit the
Match-E, 567 U.S. at 225.
Here, the applicable sections of the Public Health Service Act anticipate
peding commerce, encumbering or destroying
property, or restricting or forbidding the movement of persons or things, measures
promulgated by CDC under Section 264(a) necessarily strain the economy of a state,
especially a state historically and deeply dependent on recreational, seasonal, and
other visits by a multitude of persons from throughout the nation and from abroad
and dependent on the resulting income from the accompanying services and products
offered in Florida.
To enforce CDC regulations, Section
s. Contemplating a
on state public health measures, 42 C.F.R. § 70.2 requires CDC to determine before
imposing federal regulation that a state fails to enforce sufficient health measures.
In short, the Public Health Service Act anticipates an effect on a state. By suing to
avoid or mitigate the effect caused by the statute, Florida establishes statutory
- 24 -

App. 28

standing. Tiger Lily, LLC v. United Stat

., 992 F.3d 518, 522

(6th Cir. 2021) (considering Section 264 in an action alleging an adverse effect on
rental income); Skyworks, Ltd. v. Centers for Disease Control & Prevention, 2021 WL
911720 (N.D. Ohio 2021); Brown v. Azar, 497 F. Supp. 3d 1270 (N.D. Ga. 2020).
Also, Florida claims in Count I that the conditional sailing order imposes
regulatory authority. (Doc. 1 at 13)
By claiming that CDC acts ultra vires, Florida avoids the requirements of statutory
standing. Chiles v. Thornburgh, 865 F.2d 1197, 1210 (11th
a meritorious litigant, injured by ultra vires action, would seldom have standing to
will not fall within the zone of interest
of the very statutory or constitutional provision that he claims does not authorize
Haitian Refugee Ctr. v. Gracey, 809 F.2d 794, 811
n.14 (D.C. Cir. 1987). Further, if Florida successfully claims (Count V) that Section
264 endows CDC with an unconstitutional delegation of l
regulations become invalid and the issue of statutory standing is resolved.
(stating that a state may sue

Massachusetts v. Mellon
the federal government in a parens patriae
any form of enforcement of

LIKELIHOOD OF SUCCESS ON THE MERITS
ss on the merits requires analysis
their evidentiary and legal su

- 25 -

App. 29

claims will receive attention to determine, based on th
likelihood of success on the merits.
A. Count I and Count V
Florida argues that the conditional sailing order exceeds the statutory and
regulatory authority delegated to CDC, which argues in response that the conditional
sailing order fits perfectly within the measures contemplated by the statutes and
regulations. The history of the federal go

power clarifies the

extent of the authority codified in the text.
1. The History of the Federal
utory and regulatory authority, CDC
provides a brief historical account of the federal governme
spread of communi

combat the

12

federal government has a long history of
acting to combat the spread

13

(Doc. 31 at 5) However,

cessary to fully portray the role of the
federal government.
In the early years of the republic, the federal role in curbing infectious disease
extended to little more than support for the effort of local government. C ENTERS

12

See, e.g.

experience, given the death toll caused by pa
13

Leviticus

Of course, society has quarantined people, animals, and things for thousands of years.

- 26 -

App. 30

FOR DISEASE CONTROL & PREVENTION,

History of Quarantine (Feb. 12, 2007),

www.cdc.gov/quarantine/histo

ection against imported

diseases fell under local and state jurisdiction[, and i]ndividual municipalities
enacted a variety of quarantine regulations for arriving vess
CDC cites to demonstrate federal involvement authorized the president to direct
federal officers to aid in the enforcement of only state quarantine law. Act of
May 27, 1796, 4 Cong. Ch. 31, 1 Stat. 474 (1796) (repealed 1799). And even though
replaced this Act with a federal inspection system for

implemented by the Marine Hospital Service, a predecessor to the Public Health
Service14

ill seamen and reinforced the federal
to the states.15 See U.S. NAT L LIB. OF

MED., Images from the History of the Public Health Service: Disease Control and Prevention,
www.nlm.nih.gov/exhibition/p
Hospital Service until the 1870s remained the care of

14
Today, after a series of reorganizations, the Public Health Service comprises eight
agencies, including CDC.
15
See, e.g.
restraints, which shall be required and established by the health laws of any state . . . respecting any
vessels arriving in, or bound to, any port or district thereof, whether from a foreign port or place,
or from another district of the United States, shall be duly observed by the collectors and all other
officers of the revenue of the United States, . . . and all such officers of the United States shall be,
and they hereby are, authorized and required, faithfully to aid in the execution of such quarantines
and health laws, according to their respective powers and precincts, and as they shall be directed,
See also Gibbons v. Ogden,
22 U.S. 1, 113 (1824)
terpretation of that instrument, and
have passed several acts for giving aid and effect to the execution of the laws of the several States
respecting quarantine. It will be recollected, that the first recognition by Congress of the quarantine
laws, was in 1796; and that only directs the offi

- 27 -

App. 31

For roughly a hundred years the states principally exercised the quarantine
power, understood as a component of the police power of the states. Gibbons v.
Ogden, 22 U.S. 1, 203 (1824) (explaining that
that immense mass of legislation, which embraces every thing within the territory of
a State, not surrendered to the general government. . . . Inspection laws, quarantine
laws, health laws of every description . . . are component
R. Schwartz,

gation to Treat During an Epidemic,

60 STAN. L. REV
on state initiative is not surprising given that healthcare regulation has primarily
been within the purview of the police powers reserved to the states by the Tenth
Biodefense and Constitutional Constraints, 4 U.
MIAMI NAT L SECURITY & ARMED CONFLICT L. REV. 82, 112, 128 (describing
ne law lay at the heart of
federal government
merely advised and assisted the states, provided financial support, and investigated
sources of diseases. See John Yoo, NATIONAL REVIEW
uing that the Comme
Washington, D.C. an important, yet supporting, role in
Kyle Connors, Federalism and Contagion: Reevaluating the Role of the CDC, 12
CONLAWNOW 75, 77, 82 (2020)

aditionally acted in an

advisory role to state and

- 28 -

App. 32

ould pass formal legi

In the mid- to late-nineteenth century, amid outbreaks of yellow fever
and cholera, many began criticizing a perceived inefficiency of differing state
quarantine laws, and the federal government assumed a more active role in
quarantine measures, such as the inspection of arriving vessels and passengers at
ports of entry. ASSISTANT SURGEON GENERAL RALPH CHESTER WILLIAMS, M.D.,
THE UNITED STATES PUBLIC HEALTH SERVICE: 1798-1950, at 80 (Commissioned
Officers Association of the United States Public Health Service 1951). For example,
in 1878, Congress enacted the first quarantine law empowering the federal
government to wield quarantine measures apart from the states and installed the
Marine Hospital Service as the primary
from any foreign port . . . where any contag
Act of Apr. 29, 1878, 45 Cong. Ch. 66. During this era, the
quarantine authority remained controversial, and some state and local health
officials (especially from New York, New Orleans, and South Carolina) fiercely
opposed federal interference in quarantines managed by the states.16 Aiming to

In fact, a bill aiming to increase the quarantine power within the Maine Hospital
Service was rejected in light of opposition to a largely centralized system of quarantine. Among
the arguments against federal interference was the argument that the bill would concentrate the
quarantine power into too few hands, that the states were better situated to regulate quarantine
because the states enjoy more familiarity with local conditions, that federal intervention usurped the
16

individual liberty. Bill to Amend an Act Granting Additional Quarantine Powers and Imposing Additional
Duties upon the Marine Hospital Service: Hearings on H.R. 4363 Before the H. Comm. On Interstate and For.
Commerce, 55 Cong. 2 (Feb. 18, 1898).

- 29 -

App. 33

ity despite this opposition, Congress
expansively construed and aggressively employed the Commerce Clause, and the
Supreme Court continually acquiesced. Bartlett v. Lockwood
(1896); Hennington v. Georgia, 163 U.S. 299, 309 (1896).
Although federal law slowly ascended over state quarantine law if a
conflict arose, the federal

were bridled by economic

considerations and by a wholesome allotment of respect for federalism. Further,
the federal government expressly lacked the authority to
quarantine law or regulation.17
interference in any manner with any quarantine laws or regulations as they now
exist or may hereafter be a

see WILLIAMS, PUBLIC

HEALTH SERVICE

cooperative relationship between

the federal and state government and the federalist system of public health
regulation). Also, the mid- to late-nineteenth century saw changes in the method of
inspecting and quarantining an incoming vessel from a foreign port; three of the
changes merit consideration.
First, quarantine stations were critical during this era, and the federal
government began exercising greater control over quarantine stations. CDC, History

17
See, e.g. R.J. Res. 6, 42 Cong. (June 6, 1872) (ins
town or port on the coast of the Gulf of Mexico and the Atlantic coast, which is subject [to] yellow
fever, and . . . confer with the authorities of such port or town with reference to the establishment of
a more uniform and effective system of quarantine, and . . . ascertain all facts having reference to the
outbreaks of this disease in such ports or towns, and whether any system of quarantine is likely to be
effective in preventing invasions of yellow fever, and, if so, what system will least interfere with the

- 30 -

App. 34

of Quarantine. Situated outside a port, a quarantine station housed medical officers
whose duty was to determine

and to examine travelers

and cargo for signs of communicable disease. WILLIAMS, PUBLIC HEALTH
SERVICE

ed to anchor at a

station and to receive an officer aboard for these inspections. And if a vessel had
arrived from a port with an extensive outbreak of a disease or if a traveler exhibited
symptoms, a more exacting inspection occurred and temporary detention might
result. WILLIAMS, PUBLIC HEALTH SERVICE, at 80. But detention of a vessel was
disfavored and almost invariably lasted only for the
incubation period (typically from five to twenty days).18 WILLIAMS, PUBLIC
HEALTH SERVICE,

nt gradually began acquiring and

establishing quarantine stations, and New York transferred the last quarantine
station to the federal government in 1921. WILLIAMS, PUBLIC HEALTH SERVICE,
at 80; CDC, History of Quarantine.
Second, if the quarantine officer declared the vessel disease-free, the officer
issued to the vessel

ILLIAMS, PUBLIC

HEALTH SERVICE, at 80. A pratique permitted a vessel to enter and operate in a
port. By contrast, a provisional pratique permitted a vessel to enter the port only

18

In fact, Surgeon General Woodworth, the chief pioneer for establishing a national health

of a vessel from an infected port, whether sickness existed aboard or not, as unjustifiable beyond

ILLIAMS,

PUBLIC HEALTH SERVICE, at 73. See also id.
accord id

- 31 -

App. 35

after completing some narrow and discrete task, typically fumigation of cargo or the
like.
Third, Congress further federalized the quarantine power by adopting a

legislation before the [ ] enactment of th
WEN SHEN, SCOPE OF CDC AUTHORITY UNDER SECTION 361 OF THE PUBLIC
HEALTH SERVICE ACT, at 8 (Congressional Research Service, 2021), which

rriving from abroad.19 Act of Feb. 15, 1893, 52 Cong.,
Ch. 114. The bill of health, obtained from a
the sanitary history and condition of [a]

Upon arrival at a U.S. quarantine station, a vessel would display the bill of health to
a quarantine officer. See ALEX CHASE-LEVENSON, THE YELLOW FLAG:
QUARANTINE AND THE BRITISH MEDITERRANEAN WORLD
(Cambridge Univ. Press, 2020) (discussing the development of these practices).
Although later abandoned and replaced by ca
42 C.F.R. § 71.11, the bill of health served as an important quarantine tool during
this period.

19

determination that local and state quarantine laws were insufficient before implementing interstate
quarantine measures. Act of Feb. 15, 1893, 52 Cong., Ch. 114.

- 32 -

App. 36

uct initiated in the late nineteenth
century, the Surgeon General (1) issued a circular temporar
from cholera-infected distri
20

(2) banned temporarily the importation of discrete items, such as
rs, boxed or baled clothing or bedding, or any similar
rnished a certificate of disinfection;21 and
enty-day quarantine of all
22

See VICTORIA BENNETT,

MEDICAL EXAMINATION OF ALIENS: A POLICY WITH AILMENTS OF ITS OWN?,
12 U. ARK. LITT. ROCK L.J.

ssing the three policies

mentioned above). However, more common measures included rapid inspection and
sanitation. For instance, when a rag, bag, or other item was suspected of infection,
y either steaming or
Vessels from Cholera-Infected Districts,
Vol. 7, No. 29 (July 15, 1892).

20

(July 15, 1892).
21

Cholera-Infected Districts, Vol. 7, No. 29

Id.

22
Restrictions Upon Immigration to Aid in
the Prevention of the Introduction of Cholera, No. 150 (Sept. 1, 1892). See HOWARD MARKEL,
QUARANTINE!: EAST EUROPEAN JEWISH IMMIGRANTS AND THE NEW YORK CITY EPIDEMICS OF
1892,
(Johns Hopkins Univ. Press, 1997) (detailing the attendant circumstances of the twentyday quarantine).

- 33 -

App. 37

After the turn of the century, as states and courts persisted in regarding
quarantine authority as firmly within the domain of the states,23 World War I
severely depleted the Pu

24

resources and forced the Public Health

Service to streamline quarantine practice. For example, in 1937, the Public Health
d quarantine stations to
issue a pratique without first inspecting a vessel if th
in advance the health of the vessel. WILLIAMS, PUBLIC HEALTH SERVICE, at 99.
Nevertheless, despite strained resources in the early twentieth century, the federal

Edelman, International Travel and Our National Quarantine System, 37 TEMP. L. Q. 28,
35 (1963).
Amid disquiet about the spread of malaria, Congress in 1944 passed the Public
Health Service Act, the statute central to this action. Rather than conferring new
duties, the Public Health Service Act largely organized, consolidated, and clarified

23

See, e.g., Ex parte Co.
case and reasonable way is not open to question. It is exercised by the state and the subdivisions of
Ex parte Johnston
measures for . . . the public health is universally conceded to be a valid exercise of the police power
of the state, as to which the Legislature is necessarily vested with large discretion . . . in determining
what are contagious and infectious diseases [and] in adopting means
Jacobson v. Commonwealth of Massachusetts, 197 U.S. 11, 25 (1905) (upholding a vaccine mandate
ly recognized the authority of a state to enact
police power of a state must be held to embrace, at least, such reasonable regulations established
directly by legislative enactment as
Simpson v. Shepard (U.S. Reps.
Title: Minnesota Rate Cases)
quarantine regulations that do not conflict with
the beginning has been content to leave the matter for the most part, notwithstanding its vast
importance, to the states, and ha
ged to the Public Health Service in 1912.

24

- 34 -

App. 38

existing legal authority, as CDC observes.25 (Doc. 31
at 5) Also, the Public Health Service Ac
management of quarantine stations, confirmed a vessel op
a bill of health if required, formalized the cooperative dynamic between health
officials of the federal and state governments, and codified other powers.26 Yet the
gation, disinfection, sanitation, pest extermination,
e Public Health Service Act accorded
comfortably with historical precedent.
Although the enactment of the Public Health Service Act represented a crest
quarantine power, quarantine regulation looked
virtually the same as the regulation at the turn of the century, and the decades
following the Public Health Service Act witnessed a distinct and unmistakable lull in
federal quarantine regulation. Shen, Scope of CDC Authority Under Section 361, at 11

medical advances, such as vaccines). For instance, routine inspections waned, and

25

This is not to say that Congress enabled no new authority or duty. For example, Section

Consolidation and Revision of Laws
Relating to the Public Health Service, by Mr. Bulwinkle, from the Committee on Interstate and Foreign
Commerce, 78th Congress, 2d Session, House of Representatives, Report No. 1364, pp. 3-4
or contaminated articles would be permitted as a
part of interstate or foreign quarantine procedures, where such animals or articles are likely to infect
human beings with a dangerous disease and no disposition other than destruction can safely be
For instance, the Act confers special power to the Surgeon General during war, empowers
the federal government to conduct medical examinations and to exclude the introduction of people,
and extends the quarantine power to aircraft.
26

- 35 -

App. 39

vessels and cargo became exempt from inspection unless infection was found first.
38 Fed. Reg. 16,861 (1973). Also, the role of quarantine stations decreased. CDC,
History of Quarantine. When in 1967 an organizational restructuring caused CDC to
share control over federal quarantine power, CDC controlled fifty-five quarantine
stations dispersed throughout the major points of entry into the United States. In the
1970s, CDC pruned the quarantine program to shift focus from inspections to
surveillance and program management. CDC, History of Quarantine. Consequently,
only seven quarantine stations remained by 1995. This regulatory relaxation
culminated in the regulations discussed in this order.
Although re-organizing the quarantine-station system and expanding to
twenty quarantine stations after the 2003 epidemic of SARS (severe acute respiratory
during the past fifty years was largely
episodic and limited to an ad hoc response to an acute circumstance. For example, in
1975 after gastrointestinal illness became more widespread
quarantine division launched the Vessel Sanitation Program under Section 264.
Yet the voluntary Vessel Sa

erative activity between

the cruise ship industry

s financed by a fee charged
s enforcement mechanism was slight and

- 36 -

App. 40

largely impelled by insurance incentives.27 CENTERS FOR DISEASE CONTROL &
PREVENTION, Vessel Sanitation Program Operations Manual, at ii (2018). The Vessel
Sanitation Program exhibits the attributes of the more recent employment of the
quarantine power, which is markedly more limited in scope than the power exercised
at the beginning of the twentieth century.
In sum, the history of federal involvement in quarantine regulation confirms
that the power peaked in the late-nineteenth and early twentieth century amid
the threat of yellow fever, cholera, malaria, and the like, but the power receded
during the past fifty years (at least, until quite recently). The history shows
(1) that the public health power, including the power to quarantine, was traditionally

the federal quarantine power has both expanded and contracted; (3) that historically
the federal quarantine power was limited to a discrete action, such as inspection and
sanitation at a port of entry, as well as detention for
incubation period; (4) that although the federal government has detained vessels,
conditioned pratique, and banned a discrete item, federal deployment of these
measures has been distinctly limited in time, scope, and subject matter; and (5) that

If a cruise vessel failed a Vessel Sanitation Program inspection, the vessel was re-inspected
within a month or two. If the vessel still failed to conform to sanitation standards, the inspector
detain the vessel. But penalties of this sort
have been extremely rare and, typically, a cruise ship must simply pay the cost of a re-inspection as a
penalty. CENTERS FOR DISEASE CONTROL & PREVENTION, Vessel Sanitation Program Operations
Manual
27

- 37 -

App. 41

the Public Health Service Act of 1944 codifies the limited regulatory power typical of
preventing diseases caused by a discrete item or a person at a major port of entry.
Never has CDC (or a predecessor) detained a vessel for more than fifteen
months; never has CDC implemented a widespread or industry-wide detention of
a fleet of vessels in American waters; never has CDC conditioned pratique as
extensively and burdensomely as the conditional sailing order; and never has CDC
imposed restrictions that have summarily dismissed the effectiveness of state
regulation and halted for an extended time an entire multi-billion dollar industry
nationwide. In a word, never has CDC implemented measures as extensive,
disabling, and exclusive as those under review in this action.
However, in this action CDC claims a startlingly magnified power. But
as CDC concedes, the Public
federal quarantine practices applied during the previous century (Doc. 31 at 5), and
21st century, the legislative framing for quarantine has
Biodefense and Constitutional Constraints,
at 156. Thus, viewed with

s assertion of a formidable

and unprecedented authority warrants a healthy dose of skepticism. Util. Air Regul.
an agency claims to discover in a

Grp. v. EPA
long-extant statute an unheralded power to

its announcement with a measure of
Food & Drug Admin. v. Brown & Williamson Tobacco Corp.,
529 U.S. 120, 121 (2000)).
- 38 -

App. 42

2. 42 U.S.C. § 264
The text of the Public Health Service Act lends support to a narrower
quarantine power for CDC. The provision of the Public Health Service Act that
most directly addresses quarantine and inspection is 42 U.S.C. § 264(a). Congress
enacted Section 264(a) to delineate the contours of the authority intended for the
Secretary of Health and Human Services and, consequently, for CDC:
The Surgeon General,28 with the approval of the Secretary,
is authorized to make and enforce such regulations as in
his judgment are necessary to prevent the introduction,
transmission, or spread of communicable diseases from foreign
countries into the States or possessions, or from one State or
possession into any other State or possession. For purposes
of carrying out and enforcing such regulations, the Surgeon
General may provide for such inspection, fumigation,
disinfection, sanitation, pest extermination, destruction of
animals or articles found to be so infected or contaminated
as to be sources of dangerous infection to human beings, and
other measures, as in his judgment may be necessary.

Section 264(a) is best understood by displaying the second sentence
grammatical structure dictates:
For purposes of carrying out and enforcing such regulations,
the Surgeon General may provide for such
(1)
(2)
(3)
(4)
(5)

inspection,
fumigation,
disinfection,
sanitation,
pest extermination,

The statute refers to the Surgeon General, but for reasons not relevant here, administrative
reorganizations transfer to the Secretary of HHS the authority conferred to the Surgeon General.
31 Fed. Reg. 8855, 80 Stat. 1610 (1966).
28

- 39 -

App. 43

(6) destruction of animals or articles found to be so infected or
contaminated as to be sources of dangerous infection to
human beings, and
(7) other measures,
as in his judgment may be necessary.

A perhaps important observation is that items (1) through (7) form a
grammatical series succinctly ex
een (5) and (6), the sentence
fter 6, which appears in the statute, is
grammatically superfluous in this hypothetical version.) The two versions deliver
different results. The principal difference is that in the former version (the real
und to be so infected or contaminated as
to be sources of dangerous
and not to inspection, fumigation, disinfection, sanitation, or pest extermination,
none of which requires a preliminary

cruise line vessel and any other object) pertains only

CDC interprets the provision to confer almost boundless authority; Florida
interprets this provision more narrowly.

esents a controlling

question of statutory interpretation.

- 40 -

App. 44

Florida argues that CD
granted by the statute. Relying on several canons of construction, especially ejusdem
generis, noscitur a sociis, and the canon of constitutional avoidance, Florida argues that
ies the narrow natu

actions to those that resemble or have scope and attributes simi
fumigation, disinfection, sanitation, or
one or more of those discrete actions or a similar discrete action. In other words, the
second sentence exemplifies the action Congress authorized in the first sentence.
That is, the second sentence provides examples that delimit the action contemplated
by Congress in the first sentence. And given the practically unlimited authority
asserted by CDC, Florida argues that CDC fails to identify a clear statement from
Congress granting the broader authority. (Doc. 9 at 10)
clause in Section 264(a) confers on
force regulations and pursue remedies,
ion that the measure
prevent transmission of a communicable disease. (Doc. 31 at 23) According to
legislative determination

canons of statutory interpretation is unnecessary, and that ends the matter. (Doc. 31
at 29 n. 20)
- 41 -

App. 45

According to CDC, examining the other subsections, Section 264(b) through
. . , [which] include[s] the

29) CDC argues that these

the broad grant of authority

in the first sentence of § 264(a) is not confined to the specific intrusions on private

ect the commonsense
notion that, to avert the spread of communicable diseases, ships entering U.S. ports
may be detained, inspected, and permitted to disembark only under specified

Next, even if the second sentence of Section 264(a) narrows the first sentence,
as Florida suggests, CDC argues that the conditional sailin

ill squarely

conditional sailing order
imposes on the cruise industry a set of cond
destruction of property, and

31 at 30) CDC regards the

conditional sailing order not
a phased approach to cond
a carrier to enter a U.S. port, disembark, and begin
operation under certain stipulated conditions
(characterizing the conditiona

n of obtaining or retaining

controlled free pratique for operating a

- 42 -

App. 46

And according to CDC, the regulation of free pratique is a direct outflow of

than the other types of inspection, hygiene, and safety protoc

the objects of the specifically enumerated measures, encompass a cruise ship. See
First Preliminary Injunction Hearing Transc
includes a cruise ship); (Doc. 31 at 30).
than the enumerated measures because the conditional

sailing order merely regulates the pratique of a cruise ship. (Doc. 31 at 30)
In sum, CDC argues that the statute authorizes the Secretary to freely employ

communicable disease. (Doc. 31 at 27)

ization, the statute
ment of the public

this broad discretion comports with the

ive determination to

defer to a specialized agency in an area of
authority to impose conditions for operating
a conveyance in international and interstate travel during a pandemic. (Doc. 31
at 28) And included in this discretion is the legal authority to implement measures
Second Preliminary Injunction Hearing
Transcript, at 109 (Jun. 10, 2021). Thus, CDC argues explicitly that the second
sentence of Section 264(a) places virtually no restraint on the director, who is free to
- 43 -

App. 47

regulate the nation as a whole, including any form of industry, enterprise, and

interstate or international transmis
human-to-human infection.
ii. Precedent Interpreting Section 264
Just as the parties disagree about the meaning of Section 264(a), recent cases
interpreting Section 264(a)

a rent moratorium imposed
at Section 264(a) confers on CDC.
, 992 F.3d 518, 523

Compare Tiger Lily, LLC v. United
(6th Cir. 2021) (analyzing Section 361 and holding that the rent
outside the scope of

Skyworks, Ltd. v. Centers for Disease Control &

Prevention, 2021 WL 911720, at *11 (N.D. Ohio 2021) (discussing Brown and
Chambless

ecisions have the feel of adopting strained or

forced readings of the statute, stretching to rationalize the governmental policy at
, 2021
WL 1779282, at *6 (D.D.C. 2021) (enjoini
with Brown v. Azar, 2020 WL 6364310, at
*7 (N.D. Ga. 2020), appeal docketed, No. 20-14210 (11th Cir.); and Chambless Enters.,
LLC v. Redfield, 2020 WL 7588849, at *5 (W.D. La. 2020) (reasoning that the specific
enumerations in the second
showing that it may infringe on personal liberties or property rights where
appeal docketed, No. 21-30037 (5th Cir.).
- 44 -

App. 48

Some courts read sentence one of Section 264(a) in light of sentence two and
hold that the statute empowers a narrower array of regulatory activity. See, e.g., Tiger
intrusion on property to sanitize and

Lily
dispose of infected matter is different in na
For example, Alabama Association of Realtors

ulemaking authority

in the first sentence of § 264(a) is teth
79282, at *5 (D.D.C. 2021). This conclusion hinges on the
canon against surplusage, which aims to acknowledge and effect each provision of a
statute; the constitutional avoidance canon, which favors an interpretation that
forbears raising nettlesome constitutional issues; and the major questions doctrine,
which assumes that Congress provides a clear delegation of authority for an agency
charged with the most salient and consequential issues.
By contrast, Chambless

of the statute is unambiguous

and evinces a legislative dete
authorities about what meas
2020 WL at *5.29 Relying on an opinion addressing an FDA ban on small turtles,30
Chambless reasons that Congress frequently grants broad flexibility to an agency
implementing public health measures and that the list of enumerated items reinforces

29

On appeal, the D.C. circuit likewise relied

WL 2221646, at *1 (D.C. Cir. 2021).
30

., 2021

Indep. Turtle Farmers of Louisiana, Inc. v. United States, 703 F. Supp. 2d 604 (W.D. La. 2010).

- 45 -

App. 49

y. 2020 WL at *6. Further, Chambless, like CDC,
reasons that subsections (b) through (d) demonstrate that
first subsection is not an exhaustive list of the permissible m
2020 WL at *6.31

Alabama Association of Realtors) offers a much clearer and more intuitive rendering of
the statute, each of these decisions interprets Section 264(a) in the context of a rent
moratorium, and none of th
regulating the transmission of a disease aboard a ship, an airplane, or another
common carrier. To determine the scop
requires consideration of both the history and the accompanying statutory text.
iii. Analysis of Section 264(a)
The first sentence of Section 264(a) appears to provide the Secretary with
broad authority to implement regulations th
However, the next sentence
ay provide for such inspection, fumigation, disinfection,
sanitation, pest extermination, destruction of animals or articles found to be so
C focuses on the more expansive words in

, 2021 WL

31

2221646, at *2 (D.C. Cir. 2021) (same).

- 46 -

App. 50

n, fumigation, disinfection, sanitation,
pest extermination, [and the] destruction of animals or articles found to be so

But Florida correctly observes that the second sentence operates to limit
ority to only those actions resembling

, 2021 WL
1779282, at *5 (D.D.C. 2021)
e second sentence of Section 264(a)
discloses, illustrates, exemplifies, and limits to measures similar in scope and
character the measures contemplated and authorized by Congress when enacting the
statute. Yates v. United States, 574 U.S. 528, 546 (2015) (applying specific statutory
terms to cabin the meaning of a broad statutory term). Needless to say, the statute
includes nothing in scope or character similar to, for example, governing landlord
and tenant law nationwide or halting commerce by a fifteen-month closure of one or
more industries or halting other public movement and activity nationwide.
Thus, if CDC promulgates regulations
ansmission of a disease, the enforcement
measures must resemble or remain akin
sanitation, pest extermination, [or the] destruction of infected an
Any other reading of the st
Yates v. United States, 574 U.S.
- 47 -

App. 51

would render [the more specific

Williams v. Taylor,
ve effect, if possible, to every clause and

As explained in Tiger Lily, LLC v. United Stat
and defined by reference to the enumerated
Cir. City
Stores, Inc. v. Adams, 532 U.S. 105, 106 (2001)). The ejusdem generis canon counsels

authority suggested by the enumerated terms. And this is confirmed by the historical
employment of these measures, which resemble the enumerated categories but lacks
any resemblance to the conditio
Likewise, the noscitur a sociis canon relies on the assumption that the reader
can determine the meaning of a word according to the company the word keeps.
Bilski v. Kappos
may be given more precise content by the neighboring words with which it is
United States v. Stevens, 559 U.S. 460, 474 (2010)). In other
NTONIN SCALIA &

BRYAN A. GARNER, READING LAW: THE INTERPRETATION OF LEGAL TEXTS 195
(2012).

- 48 -

App. 52

Further, CDC argues that
whatever the director finds

junction Hearing Transcript

unbounded interpretation causes separation-of-powers
problems, discussed in greater depth below, and naturally stirs suspicion about the
constitutionality of Section 264(a). But as Justice Holmes explai
be construed, if fairly possible, so as to avoid not only the conclusion that it is
unconstitutional, but also grav

United States v. Jin Fuey

Moy, 241 U.S. 394, 401 (1916).

ress speaks clearly if aiming to assign
32

Util. Air

Regul. Grp. v. EPA, 573 U.S. 302, 324 (2014)
e it would bring about an enormous and
transformative expansion in [the agency
citation and quotation omitted). In FDA v.
Brown & Williamson Tobacco Corp., 529 U.S. 120 (2000), the FDA attempted to
regulate tobacco under a strained reading of 21 U.S.C. § 301. Citing tobacco

regulate an industry constituting a significant portion

32

342 (2019) (Kavanaugh, J.).

ajor questions doctrin
Paul v. United States, 140 S. Ct.

- 49 -

App. 53

FDA
v. Brown holds that the FDA exceeded its statutory authority by regulating tobacco
without clear congressional blessing. 52

FDA v.
tine regulation throughout American

Brown,

s historically limited application of
inspection, sanitation, and isolation. In contrast, the expansive breadth of authority
asserted by the conditional sailing order to microscopically regulate a multi-billiondollar industry is breathtaking.
CDC acknowledges that, if considered a rule, the conditional sailing order

affect the economy by more than $100,000,000 or is likely to increase costs for individual industries or state governments). In light of

dominant doubt remains that Congress would convey such formidable authority by
the vague terms of Section 264(a).
ejusdem generis,
noscitur a sociis, the canon against surplusage, the constitutional avoidance canon, and
the major questions doctrin

broad interpretation.

Next, the statute, accordin
tors v. United States
, 2021 WL 1779282, at *5 (D.D.C. 2021). This view
comports with the historical antecedents of the enforcement methods specified in the
- 50 -

App. 54

statute. See, e.g.,
s, furs, skins, hair, feathers, boxed or
baled clothing or bedding, or any similar article
a cruise vessel. Only a severely strained
interpretation of the statute
entire fleet of cruise ships. See Skyworks, Ltd. v. Centers for Disease Control & Prevention,
2021 WL 911720, at *10 (N.D. Ohio 2021)
within the context of the statute). Common sense and common usage (and any
English dictionary) dictate that
ton, thousand-plus-passenger vessels. For example, The American Heritage Dictionary
(5th ed. 2020) defines articl
interpretation is additionally confir
nifest of a carrier lists articles which
may require disinfection . . . , the Director shall disinfect them on board or request
. . . to keep the articles separated from the other cargo pending appropriate

See,
e.g., 42 C.F.R. § 71.32(b) (allowing quaranti
has reason to believe that any arriving carrier or article or thing on board the carrier
disinterested reading of the statute, a cruise
ship falls outside the definiti

- 51 -

App. 55

the statute by suggesting that an animal or article must present more than a
possibility or a remote risk of infection due to an instance of infection in another
animal or article. Skyworks

rects the agency to act on

specific animals or articles which are them
Section 264(a) allows the regulation of only an infected or infecting item. Alabama
, 2021 WL 1779282, at *5

found

Skyworks,

2021 WL at *9) (internal quotations omitted and emphasis added)).
iv. Other Provisions
CDC alludes to other provis

nderscore the breadth of

subsections (b) through (d), the quarantine provisions, authoriz
include measures far
beyond fumigation, extermination, and the like. (Doc. 31 at 23)
Additionally, rather than signific
quarantine powers, subsections (b) through (d) provide a limitation on the quarantine
of a person. In example, 42 U.S.C. § 264(c) provides
under this section . . . shall be applicable only to individuals coming into a State or
provision shows, among other things, that
lates a person who is not arriving at a
- 52 -

App. 56

U.S. port from abroad.33 And this limited quarantine of a person comports with the
historical practices implemented by the federal government to temporarily inspect
and detain a foreign person arriving to a U.S. port. WILLIAMS, PUBLIC HEALTH
SERVICE
inspecting and detaining immigrants). Hence, even though these subsections, if read
in isolation, expand the authority suggested by subsection (a) beyond fumigation and
t supplant the reach of the first or create
Skyworks, Ltd. v. Centers for Disease
Control & Prevention, 2021 WL 911720, at *10 (N.D. Ohio 2021).
Next, the conditional sailing order invokes Sections 264 and 268 of the Public
Health Service Act. Although neither party delves into the broader statutory regime,
other provisions in the Public Health Service Act complement and clarify the powers
and duties described in Section 264 and, consequently, inform the most natural
reading of Section 264(a). Hueso v. Barnhart, 948 F.3d 324, 333 (6th Cir. 2020)
tire text, in view of its
structure and of the physical and logical relation of
ANTONIN SCALIA & BRYAN A. GARNER, READING LAW: THE INTERPRETATION OF
LEGAL TEXTS 167 (2012)); see also Sorenson v. Secretary of Treasury, 475 U.S. 851, 860
(1986) (discussing the importance of examining different parts of the same act to help

33

Cf.
communicable disease in a qualifying stage

- 53 -

App. 57

construe a statute). The pertinent sections appear in Part G (Quarantine and
Inspection), within which Section 264(a) appears.
Sections 264 through 272 authorize the Secretary, among other things,
of persons and property from [foreign]
by the president (Section 265); (2) to

to have an infection or risking contagion to members of the ar
266); (3) to create and manage quarantine stations (Section 267); (4) to utilize
customs and Coast Guard officers to enforce the quarantine regulations (Section
headed to the United States
the frontiers of the United
set forth the sanitary history and condit
These statutes contemplate a regime in which the Secretary maintains the
authority to inspect an incoming vessel at a quarantine station, to quarantine an
infected person arriving from abroad (o
a condition of entering a U.S. port from
abroad, and to detain an arriving carrier for the time necessary to sanitize or treat an
animal or an article on board

or contaminat

sections authorize measures that resemble Section 264(a
and that accord with the

authority lies perfectly within the enumerated provisions in Section 264.
- 54 -

App. 58

A reasonable interpretation of the statutes (in conjunction with the
animating history) reveals that the conditional sailing order exceeds the powers
described in the statutes, including Section 264. The conditional sailing order
includes a few requirements
d requirements to sanitize
certain areas of a vessel. However, the conditional sailing order also requires a vessel
operator, among other unauthorized measures, to (1) build an onboard laboratory,
) remain detained until complying with
long-delayed and ever-shifting requirements, and (4) ensure the vaccination of 98%
of crew and 95% of the passengers to bypass a costly and burdensome simulated
voyage requirement. Even if granting

planation that the

conditional sailing order merely conditions free pratique, the conditional sailing
order imposes an indiscriminate and burdensome conditioning of free pratique that
amounts to an unprecedented detention of an entire fleet of recreational cruising
vessels. With this statutory context in mind, the regulations implementing the
statutes require brief examination.
3. The Regulatory Landscape
Despite the lack of authority explicitly appearing in Section 264(a), the
conditional sailing order invokes 42 C.F.R. §§ 70.2, 71.31(b), 71.32(b), and 71.1 as
on of these regulations and asserts that
d reasonably articulate the inadequacy of state health
t outside 42 C.F.R. § 70.2. Further, Florida argues
- 55 -

App. 59

that the inspection and detention of vessels authorized by Section 71.31 is limited to

(Doc. 9 at 13) Thus, Florida understands the regulations to constitute a limited

CDC reads the implementing regulations more broadly and again focuses on
the language permitting CDC di

es to prevent such spread

of the diseases as he/she

(Doc. 31 at 7) CDC

observes that 42 C.F.R. §§ 71.32(b) and 71.31(b) explicitly authorize the detention of

And CDC observes that unde
movement by issuing a cont
CDC relies principally on the free pratique provision to justify the conditional
sailing order and argues that
of § 71.32(b). (Doc. 31 at 24) According to

e statute forbids the

agency from withholding controlled free pratique to any ship

(Doc. 31 at 27) CDC asserts that under the presumably broad authority granted to
CDC, including the authority
order falls squarely within these r
Charging CDC with the authority granted to CDC under Section 264(a),
42 C.F.R. §§ 70 through 71 include regulations to contain communicable disease.
But Part 70 differs importantly from Part 71. Part 70 applies only to a vessel in
- 56 -

App. 60

interstate transit. Part 71 applies only to a vessel in international transit, that is, to
. . of a communicable disease from foreign

i. Part 70 and Interstate Quarantine Powers
The only provision from Part 70 cited by CDC is 42 C.F.R. § 70.2, which
resembles Section 264(a) by authorizing the director of CD
to prevent such spread of the diseases as he/she deems reasonably necessary,
including inspection, fumigation, disinfection, sanitation, pest extermination, and
destruction of animals or articles believed
Section 70.2 adds to Section 264(a) that the director ma
e measures taken by health authorities of any State or
possession . . . are insufficie

ease from spreading. Otherwise, the

analysis of Section 70.2 is in all respects similar to that of Section 264.
Consequently, Section 70.2 fails to suggest any broader authority.
The other regulations governing the interstate quarantine power confirm this
mentioned only once. Specifically, Section
of any vessel . . . in interstate
health authority at the next port of call if a case of a communicable disease occurs on
board. Part 70 instead describes the extensive limitations on the federal

- 57 -

App. 61

domestic quarantine on a person. 34 Because Part
70 says nothing meaningful about the regulation of a vessel and because Section 70.2
imposes an additional requirement before triggering the quarantine measures (which
only duplicate those in Section 264(a)), Section 70.2 fails to expand the scope of
e only thing Part 70
much more modest authority if regulating
already acknowledged by CDC at the preliminary injunction hearing. Second
Preliminary Injunction Hearing Transcri
claimed more authority over arriving in
arriving from outside U.S. borders and should be subject to additional

additional hurdle to that authority.
ii. Part 71 and Foreign Quarantine Powers
In contrast, Part 71 includes regulati
countries into the Stat

array of tools to accomplish

34

ther less restrictive means would adequately serve

- 58 -

App. 62

objectives. 42 C.F.R. § 71.1(a). 35
Structurally, Part 71 defines terms and next describes measures (1) for vessels at
foreign ports (Subpart B), (2) for vessels in transit to an American port (Subpart C),
(3) for health measures at an American port (Subpart D), and (4) for inspection upon
arrival from a foreign port (Subpart E). The primary foreign-quarantine regulations
invoked by the conditional sailing order appear in Sections 71.29 through 71.40,
Subpart D. These provisions warrant closer review.
CDC prominently features 42 C.F.R. § 71.31 in defending
to greater authority. (Doc.

exempts an arriving carrier
ines that a failure to inspect will present

a threat of introduction of communicable diseases into
regulatory relaxation for an incoming vessel.)
On the other hand, Section 71.31(b) contains two sentences that enable CDC
to enforce the rest of Part 71 governing foreign quarantine powers. The first sentence
of a carrier until the completion of the
measures outlined in
issue a controlled free pratique to the carrier stipulating what measures are to be
ntion and controlled pratique are limited by

For instance, the director can compel contact information from a person who presents a
risk of transmitting disease (Sections 71.5 and 71.
35

that the Director deems necessary to avert [
disease) (Section 71.40).

- 59 -

App. 63

the temporal component of subsection (b):

on of the measures
and the controlled free

pratique are ancillary powers that enable and serve the implementation of other
measures in Part 71.36 In other words, to implement any of the foreign quarantine
measures included in Part 71, CDC may detain a vessel and issue a controlled free
pratique to that vessel until the measures from Part 71 are completed.
For instance, if CDC intends to disi

disinfestation, the director may issue a controlled free pratique until completion of
either the disinfection or the disinfestation, or the director may do both until
completion of the measures. In any of these instances, the detention and the
conditioned free pratique serve as temporary tools directed to a specific vessel to
accomplish the other measures appearing in Part 71.
Yet, the conditional sailing order requ
in Part 71. The conditional sailing order serves as a long-term detention unless and
are subject to change and which fail to
appear in Part 71. The record shows that this
far longer than any pertinent incubation period and far longer than required by any

36

In these adjoining sentences, the transition from
s that the section contemplates the same vessel and

- 60 -

App. 64

e conditional sailing order prescribes excruciating and
such as the requirement to build laboratories on board;
the requirement to contract with customers as well as several public and private
entities at ports-of-call; the requirement for pervasive daily testing and reporting; the
requirement to conduct self-funded, expensive simulated voyages (or to vaccinate
95% of passengers, including children too young to qualify for vaccination at this
time); and the requirement to limit operations after obtaining a conditional sailing
certificate. Whether a detention or a conditioned pratique, the conditional sailing
order is unprecedented in duration and scope, and CDC exceeded its regulatory
authority under the provision on which CD
Section 71.31.
Next, the conditional sailing order cites 42 C.F.R. § 71.32(b) to substantiate

disinfection, disinfestation, fumigation, or other related measures respecting [an
arriving] carrier or article or thing as he/she considers necessary to prevent the
introduction, transmission, or sp

37

Although this

section, like Section 70.2, hardly clarif
similarity to Section 264(a)), two features of Section 71.32(b) are noteworthy. First,

37

infected.

- 61 -

App. 65

sinfestation, [and] fumigati
narrower reading of the similar provisions appearing in Section 264(a) and Section
70.2.
ct, both Sections

Preliminary Injunction Hearing Transcript, at 122 (May 12, 2021). Thus, whatever
interpretation of Section 71.31 and 71.32 is contrived, CDC can implement the
measures from neither Section 71.31 nor 71.32 unless a vessel is inbound. But the
conditional sailing order forces regulation on vessels that have been moored in U.S.
ports for more than fifteen months. This presents a formidable interpretive hurdle for
CDC.
To begin with, the plain m

that a fleet of vessels

is, a fleet of vesse
n of the measures in 71.31
and 71.32. Attempting to overcome this
to include the locally moored cruise vessels under the theory that the vessels might
arrive after an earlier departure. (Doc. 31 at 24; Doc. 47 at 122); Yet the conditional
sailing order imposes restrictions (coupled
embark in the first instance, and, consequently, prevents the conditions required for a
vessel to acquire status as

- 62 -

App. 66

other operations at the port

rcular pretext precludes the

conditions required to tr
guing that Section 70.2 otherwise
authorizes the conditional sailing order if the cruise vessels fail to constitute an
tion Hearing Transcript
thority here with respect to arriving

authority to regulate interstate voyages in accord with the conditional sailing order is
unmistakably lacking in Part 70.
In any event, assuming the provisions invoked by CDC arguably include
s authority to issue the conditional sailing

has historically included limited measures required to resolve a specific infection or
the like reported during an inbound voyage or encountered during an inspection.
And history shows controlled free pratique was designed to lessen and to replace38
the bill-of-health requirement, not to impose even more burdensome and
comprehensive industry-wide requirements that detain a fleet in port indefinitely.
In short, none of the regulations invoked by CDC justifies the conditional
sailing order. Even if ignoring Sections

38

42 C.F.R. § 71.11 abolishes the bill-of-health requirement prescribed by Section 269. This

report immediately to the quarantine station . . . the occurrence, on board, of any death or any ill

- 63 -

App. 67

es appearing in both regulations and the history of
conditioning pratique demons

plement pointed, discrete,

and temporary measures. CDC cites no historical precedent in which the federal
government detained a fleet of vessels for more than a year and imposed
comprehensive and impossib
permitting a vessel to sail. That is, CDC cites no historical precedent for, in effect,
closing an entire industry. The closest historical antecedent CDC identifies (perhaps
in jest) is a former ban on baby turtles with a shell less than four inches wide. First
Preliminary Injunction Hearin

gh CDC enjoys the authority

to temporarily detain a vessel and to condition pratique, that authority is not
boundless. The authority extends to and serves other measures, which look a lot like
ion, fumigation, disinfection, sanitation,
pest extermination, [and] destru
Both text and history confirm that the conditional sailing order exceeds the
authority granted to CDC by Section 264(a). And if Section 264 fails to confer the
statutory authority for the conditional sailing order, the regulations implementing
Section 264 can grant no additional authority.
F.T.C., 482 F.2d 672, 674 (D.C. Cir. 1973)

specifically granted it in the light of

Civ.

Aeronautics Bd. v. Delta Air Lines, Inc
question is not what the Board thinks it should do but what Congress has said it can
- 64 -

App. 68

es and regulations did somehow grant the expansive
authority claimed by CDC, such a broad grant of authority would present a slew of
other legal issues.
4. Ratification
In a supplemental memorandum (filed after the first hearing), CDC argues
(Doc. 72) that Congress ratified the conditional sailing order by passing the Alaska
Tourism Restoration Act, Pub. L. No. 117-14, 117th Cong. (May 24, 2021), which
removes a restriction imposed by the Passenger Vessel Services Act, 46 U.S.C.
§ 55103, prohibiting a foreign-flagged cruise ship (that includes most cruise ships)
from sailing from a U.S. port to another U.S. port unless the cruise ship stops in
transit at a foreign port. 50 Fed. Reg. 26,961, 26,982 (July 1, 1985). Because
Canada currently bars a fore

tering a Canadian port, a

foreign-flagged cruise ship intending to sail between Alaska and Washington cannot
comply with the Passenger Vessel Services Act. (Doc. 46-11) The Alaska Tourism
Restoration Act creates a temporary and narrow exception allowing a foreign-flagged
cruise ship to sail between Alaska and Washington without violating the Passenger
Vessel Services Act. The
sued, operates in
accordance with, and retains a COVID-19 Conditional Sailing Certificate of the
Centers for Disease Contro
ional sailing certificate in the Alaska
confirmed that CDC has the statutory
- 65 -

App. 69

authority to issue a COVID-19 conditional sailing certificate, CDC correctly
the power to ratify the acts which it might have
Thomas v. Network Sols., Inc., 176 F.3d 500, 506 (D.C.
Cir. 1999) (quoting United States v. Heinszen & Co
give the force of law to official

Swayne & Hoyt v.
t Congress must speak clearly to

United States

expressly ratify agency action. Heinszen, 206 U.S. at 390.

iling order. (Doc. 72 at 4) Rather, the
Alaska Tourism Restoration Act identifies the category or class of ships exempt
temporarily from the Passenger Vessel Services Act. Identifying the class of ships to
which a statute grants a benefit is far
icate, the holders of which
constitute the affected category or class. If Congress intended to ratify an
interpretation of Section 264 that authorizes CDC to impose the restrictions
governing a COVID-19 conditional sailing
Heinszen, 206 U.S. at 390; Hannah v. Larche, 363 U.S. 420,
tantiate express
congressional ratification); Network Sols., Inc., 176 F.3d at 507 (D.C. Cir. 1999).

Solid Waste Agency of N. Cook Cty. v. U.S. Army
Corps of Engineers, 531 U.S. 159, 160 (2001);
- 66 -

App. 70

, 2021 WL 1779282, at *9 (D.D.C. 2021). Congress
areness of the interpretation to which it had allegedly
Schism v. United States, 316 F.3d 1259, 1289, 12
(citing cases). The Alaska Tourism Re

ning about three

broad interpretation of Section 264, the conditional sailing order, or the series of
implementing orders. (Doc. 72 at 3) The Alaska Tourism Restoration Act provides
that the exemption to the Passenger Vessel Services
der under [42 U.S.C. §§ 264 and
268] that requires covered cruise ships to suspend vessel operatio
if a ship is unauthorized to transit between U.S. ports. A mention of a conditional
sailing certificate or whether a ship is un
of identifying the targeted cl

a convenient means
of ratifying the conditional
terpretation of Section 264. More to

the point, the Alaska Tourism Restoration Act aims to permits ships to sail without
unintended impediment. Cf. Bob Jones Univ. v. United States
01 (1983) (finding implied ratification beca
North Haven Bd. of Educ. v. Bell, 456 U.S. 512, 535 (1982); Dames &
Moore v. Regan, 453 U.S. 654, 686, (1981).
Further, Congress cannot ratify an interpretation of a statute that violates the
Constitution, including an unconstitutional delegation of legislative authority, which
Florida alleges (Count V). Heinszen, 206 U.S. at 384; E.E.O.C. v. CBS, Inc., 743 F.2d
- 67 -

App. 71

969, 974 (2d Cir. 1984) (requiri

licit action, especially in

areas of doubtful constitution

and for many of the reasons

stated by Florida, the Alaska Tourism Restoration Act
interpretation of Section 264(a).
5. Non-Delegation Doctrine
Again, the enabling statute at the core of the present dispute, 42 U.S.C.
§ 264(a) states:
(a) Promulgation and enforcement by Surgeon General
The Surgeon General, with the approval of the Secretary,
is authorized to make and enforce such regulations as in
his judgment are necessary to prevent the introduction,
transmission, or spread of communicable diseases from foreign
countries into the States or possessions, or from one State or
possession into any other State or possession. For purposes of
carrying out and enforcing such regulations, the Surgeon
General may provide for such inspection, fumigation,
disinfection, sanitation, pest extermination, destruction of
animals or articles found to be so infected or contaminated as to
be sources of dangerous infection to human beings, and other
measures, as in his judgment may be necessary.

The first sentence grants to CDC
regulations as in his judgment are ne
ence says nothing about the means of
enforcement. The second se

Although this order decides otherwise for the purpose of the pending motion,
this portion of the order assumes that the

- 68 -

App. 72

the balance of the listed remedies and th

means whatever the

CDC characterizes the st
d deference to the judgment of the public
ecifically, CDC insists that

specific intrusions on private property
concludes in the single paragraph of the response addressing non-delegation,

At the first hearing on the preliminary injunction, counsel for CDC was asked
authority under Section 264(a). Although
the exchange consumes several pages of the transcript and wanders a bit (Doc. 47
or unwilling to specify any remedial or
preventative measure that was beyond the authority of CDC, assuming only two
findings by CDC:
Q: Is there some bound to . . . your authority?
A: Yes. At a bare minimum, the CDC needs to be making
a finding that there is a risk of the interstate or international
transmission of the disease at
important bound, and they have to find that the measures
are necessary to control it.

only to the extent of identifying the conditio
authority and omitted the more revealing answer that might explain the outer bound
- 69 -

App. 73

of the enforcement measures CDC can impose consequent on the two identified
findings by CDC.
During further questioning, counsel for CDC maintained that CDC could
indefinitely shut down an industry, such as the airline industry and other
nal travel during an emergency in which
those specific conveyances as a category were found to pose

the United States, subject only to a challenge in court

prospective litigation would remain shielded by the persistent administrative claim to
ary manufactured and in which the judiciary persists.
Another question was this:

ricted air travel in early
said the president

tiptoed a bit around the question and this was the result:
Q: . . . [I]f the President of the United States said, I refuse to
Europe and China and maybe some other places and the
CDC director could come out or HSS secretary could come
this authority.

- 70 -

App. 74

A: [They] just might have some compelling arbitrary [and]
capricious arguments in that case.
uld be subject to litigation.
....
A: But again, all of that goes to sort of the outer limits of what
point of what the outer limit
what they find necessary.

exible based on discretion
intentionally conferred upon the Secretary with these
specific kinds of findings, right? It is intended to be flexible
language. Congress knows how to legislate broadly and
how to do so narrowly. They legislated broadly here.

At the second hearing on the preliminary injunction, additional questions
were asked to CDC about the bounds of

An ever-broader

interpretation emerged. The questions, assuming an irreducible minimum of risk
exists in every aspect of human life, were directed to identifying the level of risk for
the transmission of disease that CDC would permit if the cruise industry achieved
mean sailing at or
as defined by CDC).
Q: What intelligible principle was conveyed to the CDC by
the statute to guide the CDC in determining the level of
risk or the degree of transmission that was acceptable
before constraining interstate and international travel by
a common carrier?

- 71 -

App. 75

are meaningful limits, those are intelligible principles on
how the CDC can set the risk level.

whether or not the risk that is reasonable and consistent
Q: You think necessary is an intelligible principle?
language in the statute, yes.
....

pointing out that there may be variations and mutations of
yet.
ut the day that we have some
asking, which I think is implicit at least in one major
component of this case is, has Congress conveyed an
intelligible principle to guide the CDC in determining when
and under what circumstances to intervene in . . . what
[Justice] Kavanaugh might call a major policy decision?
A: I think that listening to you explain the point, I think I
would probably say that CDC has the authority given by
Congress to legislate up to elim
tter. But their legal authority
extends that far, and where they draw the line is a question

ty goes all the way to getting
legal authority to try.

- 72 -

App. 76

(This exchange extended over several minutes (Doc. 89 at 10

a single human-to-human infection, CDC
claims authority to impose nationwide any measure, unrestrained by the second
sentence of Section 264(a), to reduce to

is a breathtaking, unprecedented, and acutely and singularly authoritarian claim.
One is left to wonder, given the persistent risk of transmission of a
communicable disease and, in fact, the frequent, debilitating, and sometimes deadly
history of transmission of a communicable disease, whether the director of CDC
erally shut down sexual intercourse in
the United States or, at the very least, imposed in accord with Section 264(a) strict
requirements for inspection, disinfection, sa

measures, as in his

transmission of AIDS or syphilis or herpes. Political prudence (and difficulty of
enforcement) might counsel CDC against this particular prohibition, but the statute,
as understood by CDC, certainly erects no barrier.
Also, one is left to wonder whether Congress could rid itself of the
burdensome income tax issue by enacting a law commanding the Commissioner of
the Internal Revenue Service in

tax at a fair rate as the

than required to pay for necessary and beneficial public programs especially for the
- 73 -

App. 77

poor, the disabled, those with special needs, and others needful of public support;
must be disproportionally or unfairly burdensome to neither the poor nor the rich but
reach all those able to pay; must not be so great as to depress productive and publicly
desirable economic activity or to deter individual initiative but must touch each
aspect of gainful economic activity; and must be calculated to enhance economic
growth and technological advancement without favorable treatment for the rich or
directive to the IRS says, in

particular tax or tax rate on anyone or any entity and, although containing some
happy aspirational words,
establishing a regime of taxation, although this hypothetical revenue code contains
much more than Section 264(a), as understood by CDC.
CDC claims a remarkable and generally unbounded power of the director of
CDC to act athwart the president; to close industries; to restrict the movement of
citizens in an out of their country, their state, their county, and city, and their home.
And recent history demonstrates that the power of the director of CDC, unless and
until corrected by the judiciary, can oust the ability of a state to exercise the police

from year-to-year.
Florida argues in Section 1(b) of the motion for preliminary injunction that
t exceed the authority under § 264 and the
relevant regulations, then § 264 and those regulations constitute an unconstitutional
- 74 -

App. 78

exercise of lawmaking by the

at 20) Florida cites in

support only Tiger Lily, LLC v. United States

,

992 F.3d 518 (6th Cir. 2021), which notes in passing that
about federalism, but also concerns about
the delegation of legislative power to the executiv

Tiger Lily

merely an interesting and
mildly provocative aside.
This order earlier reje
consideration of the somewhat conflicting opinions on the proper construction of the
statute, this order must determine alternat
non-delegation challenge if CD

Section 264(a) prevails.

Although accounts of the no

constitutional prohibition

against congressional delegation of legislative power to an ex
many and familiar, a brief summary of the most conspicuous precedents, incomplete
but illustrative, might clarify.
Except for a quick and ambiguous dispute in The Brig Aurora, 11 U.S. 382
(1813), and a few similar cases, the Supreme Court spoke only rarely about
legislative delegation until the early twentieth century when the administrative
state began to surge and cases appeared such as Buttfield v. Stranahan, 24 S. Ct. 349
(1904), in which Congress authorized the Secretary of the Treasury to promulgate
regulations to exclude importation into the United
- 75 -

App. 79

lowest grades of

and submit to him standard samples of te
at 354. An unfortunate importer of tea challenged the
uch power is legislative and cannot constitutionally be
delegated by Congress to administ

S. Ct. 353. Rejecting that

argument, Chief Justice White wrote:
[T]he statute, when properly construed, as said by the circuit
court of appeals, but expresses the purpose to exclude the lowest
grades of tea, whether demonstrably of inferior purity, or unfit for
consumption, or presumably so because of their inferior quality.
This, in effect, was the fixing of a primary standard, and devolved
upon the Secretary of the Treasury the mere executive duty to
effectuate the legislative policy declared in the statute.

24 S. Ct. 355. Relying on Congress

Buttfield

vindicates the constitutionality of the congressional delegation of authority. Buttfield
echoes The Brig Aurora

ity to delegate to the president

the power to forfeit cargo if he declared the existence of certain congressionally
stated facts that were a sine qua non of his authority.
A similar result appears in United States v. Grimaud, 31 S. Ct. 480 (1911), which
to provide general regulations for these
various and varying de

and which permits an agency
g criminal penalties. Searching for some

boundary to delegation, Grimaud remarks that agencies must
within the field covered

Grimaud was eliminating from
ctions arising from bridges of insufficient height,
- 76 -

App. 80

Marshall Field & Co. v. Clark, 12 S. Ct. 495
(1892), Grimaud suggests that, although

ongress cannot delegate

legislative power is a principle
can make a law to delegate a power to determine some fact or state of
things upon which the law makes or intends to make its own action
depend. To deny this would be to stop the wheels of government.
There are many things upon which wise and useful legislation must
depend which cannot be known to the lawmaking power, and must
therefore be a subject of inquiry and determination outside of the
halls of legislation.

Grimaud seems to
authorize Congress to empower an agency to implement a congressional policy by
some state of things upon which the law makes or
intends to make its own

ation that again echoes The Brig

Aurora and Buttfield.
Mahler v. Eby, 44 S. Ct. 283 (1924), discusses a delegation by Congress to the
Secretary of Labor to determine the categories of persons subject to deportation as
that is, persons wh
character, attached to the principles of the Constitution of the United States, and well
disposed to the good order an

Mahler next announces a

premise that jolts a reader in 2021 but that served as the convenient mechanism used
at the time to evade the law of legislative non-delegation:
Our history has created a common understanding of the words
them the quality of a recognized
standard.

- 77 -

App. 81

In other words, Congress or
the Secretary of the Treasury complied, putatively informed by the historical and
Surely a reasonable
person ought to experience discomfort if considering whether a grant of power over

eat a license in a constitutional republic.)
Not long after Grimaud and Mahler and amid the turbulence of The Great
Depression and the accompanying and aggressive implementation of the New Deal,
Panama Refining Co. v.
Ryan, 55 S. Ct. 241 (1935) (invalidating a de
A.L.A. Schechter Poultry
Corp. v. United States, 55 S. Ct. 837 (1935) (invalid
eliminate unfair competitive prices, to promote the fullest possible utilization of the

Several legal scholars and historians and the Supreme Court confirm that Panama
Refining and Schechter Poultry are the only two instance
invalidation based on an unconstitutional delegation of legislative authority.
But sentiment abruptly pivoted on the Supreme Court after Panama Refining
and Schechter Poultry. Legal and other historians still debate why the pivot occurred.
But for the present purpose, no more is necessary than to note, for example, that
National Broadcasting Co. v. United States, 63 S. Ct. 997 (1943), upholds a delegation to
- 78 -

App. 82

the Federal Communications Commission to regulate broadcasting to further the
the non-delegation
ing constitutional
law to a ritual, meek recitation.
Concurring in Industrial Union Dept. v. American Petroleum Institute, 100 S. Ct.
2844 (1980), and dissenting with Chief Justice Burger in American Textile
Manufacturers Institute v. Donovan, 101 S. Ct. 2478 (1981), Justice Rehnquist
attempted to stimulate interest in a renewal of limits on delegation, but the effort
came to nothing. The non-delegation doctrine was decidedly inert after Whitman v.
American Trucking Associations, Inc., 121 S. Ct. 903 (2001); Loving v. United States,
116 S. Ct. 1737 (1996); Touby v. United States, 111 S. Ct. 1752 (1991); Skinner v. MidAmerica Pipeline Company, 109 S. Ct. 1726 (1989); and similar decisions.
From the earliest days of the United States the federal courts have affirmed the
existence of the non-delegation doctrine but neither formally abandoned nor fully (or
even earnestly) formulated and enforced non-delegation in practice. Apparently the
present requirement, if any, for Congress to avoid an
the best available summary phrase, which echoes J.W. Hampton, Jr., & Company v.
no unlawful delegation of legislative

United States
authority occurs if Congress statutorily stat

judge the conformity of agency action to the congressional grant of power.
However, a reasonable and telling question is whether the
nveys any intelligible principle by which to judge a
- 79 -

App. 83

ethereal terms such as

merely to re-state

succinctly the governing conundrum: What is fair? What is right? What is needed to
accomplish either or both?
More recently, Gundy v. United States, 139 S. Ct. 2116 (2019), considers
whether the Sex Offender Registration and
the Attorney General exceeds the bounds permitted by the Constitution, as expressed
in the non-delegation doctrine, a constitutional imperative given the content of
Article I of the Constitution. With only eight justices participating, the Supreme
Court sustained the statute but in an atypical manner. Four justices endorsed the
statute; two justices joined Justice Gorsuch in dissent. Justice Alito, in a brief
the plurality opinion, found that the
plurality opinion must govern, based on existing precedent and absent a full court
able to revisit authoritatively and modify or reverse existing precedent. In sum,
Justice Alito signals in Gundy his agreement in whole or in part with the dissenters
on the merits but remained bound by his view of the force of precedent to vote
consistent with that precedent until overturned.
Justice Kavanaugh took no part in the consideration or decision of Gundy,
although in a dissent from a denial of certiorari in Paul v. United States, 140 S. Ct. 342
(2019), Justice Kavanaugh signals at least
precedent on non-delegation and apparently signals agreement in whole or in part
- 80 -

App. 84

the interim, Justice Barrett has replaced Justice Ginsburg, a member of the plurality
in Gundy.

tatives may adopt new federal
s opinion begins with a recapitulation of
the constitutional design and purpose of the branches of government, expounds the
egation (more fully and ably than the summary in this
order), responds to some popular objections to non-delegation, and concludes by
marshalling the salient features of a sound rule of non-delegation.

administrative actors are not

2135. Further, Justice Gorsuch emphasizes
the political accountability that is a signal attribute of a constitutional republic:
And if laws could be simply declared by a single person . . .
[l]egislators might seek to take credit for addressing a pressing
social problem by sending it to the executive for resolution,
while at the same time blaming the executive for the problems
that attend whatever measures he chooses to pursue. In turn,
the executive might point to Congress as the source of the
problem. These opportunities for finger-pointing might prove
temptingly advantageous for the politicians involved, but they

139 S. Ct. at 2135.

- 81 -

App. 85

Further, Justice Gorsuch wisely and strongly insists on the irreplaceable role
of each Article III judge to enforce diligently the distinction between the executive
branch and the legislative branch, a distinction on which the maintenance of a
constitutional republic depends:
The framers knew, too, that the job of keeping the legislative
to self-policing by Congress; often enough, legislators will
face rational incentives to pass problems to the executive
branch. Besides, enforcing the
about protecting institutional prerogatives or governmental
safeguarding a structure designed to protect their liberties,
minority rights, fair notice, and the rule of law. So when a
case or controversy comes within the judicial competence,
the Constitution does not permit judges to look the other
way; we must call foul when the constitutional lines are
crossed. Indeed, the framers afforded us independence from
the political branches in large part to encourage exactly this
duty as faithful guardians of

139 S. Ct. at 2135.
Along with the Chief Justice and Justices Thomas, Alito, and Kavanaugh,
Justice Gorsuch is manifestly dissatisf

doctrine, with which only three justices seem content. That bodes ill for the
cordingly, Justice Gorsuch proposed some
components, in the form of questions, that describe a better and more effective device
to preserve the constitutional arrangement and the correspondent protections
identified by Justice Gorsuch:

- 82 -

App. 86

To determine whether a statute provides an intelligible
principle, we must ask: Does the statute assign to the executive
only the responsibility to make factual findings? Does it set
forth the facts that the executive must consider and the criteria
against which to measure them? And most importantly, did
Congress, and not the Executive Branch, make the policy
judgments? Only then can we fairly say that a statute contains
the kind of intelligible principle the Constitution demands.

139 S. Ct. at 2141.
titutional principle above agency selfinterest, political expediency, congressional inconvenience, and unwarranted and
risky deference to a select

(Anyone familiar with the
n, with conflict among experts during debates in other

public forums, or with history, especially recent history, must regard with skepticism
the consistency, reliability, and independence of experts.)
Justice Gorsuch prefers to rely on the constitutional framework, informed and
advised by both experts and others, to resolve the main lines of public policy and the
overall management of the nation, which presents issues that require balancing both
expert opinion and other irreplaceable components, including public opinion, public
risk, public cost and public benefit, constitutional norms, and other national values
over which an expert or an administrator or an agency staff has no greater power to
decide correctly than the informed opinion of the people
including the president, who is one of only two officeholders (along with the vicepresident) elected by the nation as a whole.
The intractable confus
d the others, is such that capable and
- 83 -

App. 87

reputable modern scholars can maintain simultaneously that
d unknown to, the Constitution, see, e.g., Eric A. Posner
and Adrian Vermeule, Interring the Non-Delegation Doctrine, 61 U. CHI. L. REV. 1721
(2002), while others maintain equally staunchly that the whole of legislative
delegation and the resulting administrative state is ahistorical and unconstitutional,
see, e.g., PHILIP HAMBURGER, IS ADMINISTRATIVE LAW UNLAWFUL? (Univ. of
Chicago Press, 2014).
But more specifically, in the few years between Butterfield and the present, the
law of the United States on non-delegation has chan
increments justified by increasingly attenuated in
about whether Congress can bestow on an executive agent the power, for example,
to forfeit, as a proh

teas, such as
the present about whether Congress, based on an

ambiguous sentence or two in a statute, can bestow on an executive agent the power
indefinitely to halt the operation of, and perhaps destroy, an entire industry or
several industries or perhaps the industries of the entire nation, destroy businesses
and lives dependent on industry, halt the movement of citizens within the nation,
or entering or exiting any or all of the
states, halt public gatherings, including religious services, regardless of purpose, or
otherwise alter the course, history, prosperity, and health of the nation and the
balance of governmental auth

utive, federal and state,

ughout the nation.
- 84 -

App. 88

During the scores of years of litigation about non-delegation, the Constitution,
that is, the organic grant of power from the sovereign people and the sovereign states
to the federal government, has changed in no manner pertinent to non-delegation,
but the rulings of the Supreme Court and the lower federal courts, themselves
components of the federal government and immediately dependent on Congress for
support and continuity, have changed relentlessly and have allowed a more
encompassing and increasingly amorphous delegation to the administrative state of
the power to command and coerce the citizenry. Courts have allowed an increasing
hegemony to the unelected, electorally unaccountable, and largely anonymous
executive agents, comfortably housed in one of many formidable edifices in
Washington, D.C., or in a regional office, and doing who knows what, for who
knows what reason, and at who knows whos

ways answering to

no one (at least, no one that the citizenry can perceive) and always reliably defended
in their pronouncements by a legion of lawyers, staff, consultants, experts, and
others, as well as litigious special interest entities.
From The Brig Aurora to now, no court has failed to affirm the apparently selfevident proposition that Congress cannot delegate the power to legislate, but at the
same time no court, excepting for a moment in the 1930s, has detected the forbidden
but always elusive unconstitutional delegation of legislative authority, regardless of
the ambiguity or expanse of the grant of authority. As a result, the power of the
executive agencies has expanded exponentially. The federal courts have stood by

- 85 -

App. 89

quiescently as the structure and theory of government that is explicit in the
Constitution has mutated and deformed.
In a letter to Nathaniel Macon on October 20, 1821, Thomas Jefferson wrote:
Our government is now taking so steady a course as to show by what
road it will pass to destruction, to wit, by consolidation first; and then
nce. The engine of consolidation
will be the Federal judiciary; the two other branches the corrupting
and corrupted instruments.

Jefferson is not yet proven wrong.
The question remains as to the best means to determine whether legislation
has exceeded the permissible boundary of delegation. Perhaps a few elemental
questions, in concert with those identified by Justice Gorsuch, point toward an
answer. For example, can Congress, the president, and the court ascertain from the
statute at the time of enactment (1) the scope of the regulatory power granted to the
agency, including the range of activity subject to regulation; (2) the circumstances in
which an activity becomes subject to regulation and for how long; (3) the extent to
which and the duration for which the agen
can constrain liberty and alter human conduct and industry; and (4) the extent of any
remedial authority, including the power to suspend, terminate, prohibit, enjoin, or
compel an activity or to fine, imprison, or otherwise coerce any person? Also, can the
Congress, the president, and a court ascertain whether any stated activity or person is
definitely outside the statute and beyond the scope of the grant of regulatory power
to the agency, that is, whether a stated activity or actor is not subject to regulation,
remedy, and punishment by the agency?
- 86 -

App. 90

These questions are essential because, in practice, law is force, a legitimate
and formalized means of command and coercion, both of which are organically and
structurally bounded in a constitutional republic. If Congress cannot specify what
agency by a statute,
Congress perforce has bestowed on an agency the power to decide for itself, unbound
by legislative directive, the nature and sc

wer to deploy force,

that is, to command and coerce. Forbidding that sort of delegation seems the least
that is required by, and the
bestowing the entire legislative power on the legislative branch. Again, the
legislative power is the go

d and coerce; the party,

however denominated or arrayed, who determines the scope and extent of the power
to command and coerce is the party who exercises the legislative power.
Without the elemental distinctions, including the separation of powers,
prescribed in the Constitution, what remains is neither constitutional nor a republic.
The administrative state is nowhere expressed or adumbrated in the Constitution,
which grants the entire legislative power to elected representatives, whom the
Constitution contemplates will govern in fact and for their governing remain
electorally accountable to those who selected and empowered them. Unaccountable
administrative law, unbounded by ascertainable directives from the legislative
branch, is not the product of an ascendant and robust constitutional republic.
John Hart Ely in Democracy and Distrust (Harvard University Press 1980),
discussed overly broad delegations to the executive:
- 87 -

App. 91

Now this is wrong, not becaus
umstances there may be little
undemocratic, in the quite obvious sense that by refusing to
legislate, our legislators are escaping the sort of accountability
that is crucial to the intelligible functioning of a democratic
republic.
....
There can be little point in worrying about the distribution
of the franchise and other personal political rights unless the
important policy choices are being made by elected officials.
Courts thus should ensure not only that administrators follow
directions are given.

Ely explained succinctly the nature of unbounded administrative lawmaking
and the danger of elected legislators avoiding focused work on policy (to focus on
spending) and avoiding accountability by diverting responsibility to the
administrative agencies. Ely dismissed the transparent excuse that regulatory
subjects are too varied, technical, and complex to pe
is the obvious fact that Congress can summon the same
or more resources than an agen

ff, experts, and the like.

Of course, many arrangements are available other than the false and insidious
dichotomy of (1) no administrative agencies or (2) unbounded delegation to an
administrative agency. As Ely

all that was ever required,

and policy direction is what is lacking in much cont
If Section 264(a) conveys to the director of CDC the authority that CDC
claims in this action to support the conditional sailing order and the implementing
test and unconstitu- 88 -

App. 92

tionally delegates legislative authority to the director of CDC. The better
interpretation is the narrow interpretation advanced by Florida; failing that, the
statute goes too far.
B. Count II and Count III
Florida argues that the conditional sailing order is arbitrary and capricious and
that CDC failed to provide notice and comment.39 CDC insists that the conditional

judgments made in the midst of a deadly
ed to conduct notice-and-comment
rulemaking to condition a license or enter an order under existing regulations during
the pendency of a global publ
these issues requires a preliminary characterization of the conditional sailing order.
1. Whether the Conditional Sailing Order Qualifies as a Rule

and the conditional sailing order disclaims stat

the meaning of the

Instead, CDC identifies the conditional

By contrast, Florida argues that the conditional sailing
because it creates new legal

39

receive abbreviated treatment.

- 89 -

App. 93

a part of an agency
statement of general or particular applicability and future effect designed to
Decisional authority lends clarity to the
statutory definition. To constitute a final rule, an agen

Bennett v. Spear

Port

Rederiaktiebolaget Transatlantic, 400 U.S. 62, 71 (1970)).
Franklin v. Massachusetts, 505 U.S. 788, 798 (1992), for example, finds no
agency action when the Secretary of Commerce presents a report to the President

ilders v. U.S. Army
Corps of Engineers, 417 F.3d 1272 (D.C. Cir. 2005), several trade associations
contested the Army Corps of

onwide permits. The Corps

attempted to disclaim the disputed permit as

Nonetheless, the permits constituted final

impose[d] binding obligatio
reates new law, ri
Warshauer v. Solis, 577 F.3d 1330, 1337 (11th Cir. 2009), including the duty to build
- 90 -

App. 94

on-board laboratories for testing; the duty to comply with frequent reporting
requirements; the duty to test crew and passengers; the duty to enter into agreements
with ports, housing facilities, and medical care facilities; the duty either to complete a
simulated voyage under extensive regulation or to mandate near-total vaccination of
crew and passengers; the duty to implement testing and outbreak protocols; and the
duty to apply for, and maintain, a conditional sailing certificate. (Doc. 31 at 30) A
vessel operator must satisfy each of these requirements as a prerequisite to restricted
sailing,40
ndate of the conditional
sailing order, the conditional sailing order carries identifiable legal consequences,
such as the prospect of criminal penalties, substantial fines, and suspension of sailing.
(Doc. 1-3 at 20) The conditional sailing order serves as neither a tentative
recommendation nor a suggested guideline nor a declaratory
conditional sailing order carries the force of law and bears all of the qualities of a
legislative rule.
Further, the conditional sailing order ca
, 878 F.3d 316, 333 (D.C. Cir. 2017), and
the conditional sailing order generally applies to cruise vessels as a class rather than
to an individual vessel only. Heckler v. Ringer, 466 U.S. 602, 614 (1984) (emphasizing
sion to issue a generally

40

, 467 F.3d 391, 398 (4th Cir. 2006).

- 91 -

App. 95

Manufactured Hous.

applicable rule rather than to allow individu

United States v. Fla.

E. Coast Ry. Co., 410 U.S. 224, 246 (1973) (highlighting that the challenged portions
across the board to all of the common
Bowen v. Georgetown Univ. Hosp., 488 U.S. 204, 219 (1988) (Scalia, J.,
concurring) (observing that the Attorney General interprets

prospective, generalized application invites th
es that CDC recognized that the
conditional sailing order is a rule. CDC published in the federal register a proposal
to issue a regulatory framework, invited and (ostensibly) considered comments,
promulgated the conditional sailing order wi
and noted the category of ru

ich the conditional sailing

order would fall if the conditional sailing order qualified as a rule. Each of these
actions, taken together, suggests that CD
United States v. Mead Corp., 533 U.S. 218, 233 (2001).
In plain words, if it reads like a rule, is filed like a rule, is treated like a rule,
and imposes the consequences of
, 702 F.3d 755, 765 (4th Cir. 2012) (finding an

comply with APA notice-and-comment procedures suggest that the agency believed

Manufactured Housing Inst. v. EPA, 467 F.3d 391, 399 (4th Cir.
- 92 -

App. 96

2006)). Because the conditional sailing order is a rule, CDC was obligated to follow
the procedures applying to the promulgation of a rule (unless an exception applied),
and the standards guiding review of the conditional sailing order derive from the
reservoir of authority addressing legislative rules.
2. Whether the Conditional Sailing Order is Arbitrary and Capricious
Florida asserts that the conditional sailing order is arbitrary and capricious.
(Doc. 9 at 14) To this end, Florida argu

important aspects of
ccines and the success of foreign cruise

companies, and Florida argues that CDC has provided no realistic opportunity for
the cruising fleet to timely complete th

CDC responds that no vaccines had received FDA approval when CDC
issued the conditional sailin
availability of vaccines in devising and issuing its technical instructions and guidance
to implement the [conditional sailing orde

sailing order, they cannot be considered in evaluating the reasonableness of the

action, findings, and conclusions found to be arbitrary, capricious, an abuse of
discretion, or otherwise not in accordan
receives deference and a district judge enjoys no
- 93 -

App. 97

judgment for that of the agen
capricious if the agency . . . entirely failed to consider
an important aspect of the problem, offered an explanation for its decision that runs
counter to the evidence before the agency, or is so implausible that it could not be
ascribed to a difference in view or

Motor Vehicle

ate Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43 (1983).
Both Florida and CDC attempt to cite post-conditional-sailing-order
developments to undermine or support the validity of the conditional sailing order.
But, as both parties acknowledge (Docs. 31
that judicial review of agency action
grounds that the agency invoked
Regents of the Univ. of California, 140 S. Ct. 1891, 1907 (2020) (quoting Michigan v.
E.P.A., 576 U.S. 743, 758 (2015)). Thus, a proper review of the conditional sailing
st disregard a change in circumstances occurring after
the conditional sailin

- 94 -

App. 98

On this record (and disregarding later developments), Florid
success on the merits of Counts II and III remains unclear.41 However, two features
of the conditional sailing order suggest that the order is arbitrary and capricious.

41
travel and cruising, although a seemingly
inconsistent oversight, fails to render the conditional sailing order arbitrary and capricious. Mobil Oil
Expl. & Producing Se. Inc. v. United Distribution Companies
Heckler v. Chaney, 470 U.S. 821,
is an example of a post-conditional-sailing-order
development that appears to lack effect on the reasonableness of the conditional sailing order. The
astounding and unprecedented rapidity with which vaccines were researched, developed, approved,
and administered during 2020 has affected agency action afterward. But, when CDC issued the
conditional sailing order on October 30, 2020, the U.S. Food and Drug Administration had yet to
authorize a vaccine. (Doc. 1-3 at 8) Citing a September 2020 quote from then-CDC Director Robert
Redfield, which acknowledges that vaccines were expected to receive approval by the end of the
r the fact that vaccines would be available long
25 at 14) But the authorization and efficacy of
vaccines remained uncertain when CDC issued the conditional sailing order, and the FDA did not
authorize for emergency use any vaccine until December 11, 2020. 86 Fed Reg. 5200 (Jan. 19,
2021). Although CDC responded remarkably slowly to the availability and prevalence of vaccines,
that tardiness is immaterial to the reasonableness of the conditional sailing order when issued.
Baltimore Gas & Elec. Co. v. Nat. Res. Def. Council, Inc., 462 U.S. 87, 103 (1983) (finding that when an
agency makes "predictions, within its area of special expertise, at the frontiers of science . . . a
reviewing court must generally be at its most deferential."). Therefore, the conditional sailing order
appears to be neither arbitrary nor capricious for failing to consider the presumably forthcoming
availability of vaccines. Auer v. Robbins, 519 U.S. 452, 459 (1997).

Florida appears to face other temporal obstacles. For instan
rationally comport with the conditional sailing
uise industry outweigh the costs of not allowing
ation marks omitted). Further, Florida argues that
attention to the timing of the conditional sailing

mprising four phases to resume sailing. The

omission. At most, Florida appears to complain ab
the conditional sailing order; based on this, Florida can advance at most an unreasonable delay
on stale information from the beginning of
by reference findings and evidence from the initial no-sail order, and the conditional sailing order
cites research and data not appearing in the orders. For example, the conditional sailing order

- 95 -

App. 99

First, the conditional sailing order imposes vague and indefinite rules subject
to change. Throughout the conditional sailing order, CDC reserves the authority to
amework through additional orders . . . and
[to] issue additional technical instructions

which CDC regularly creates.

(Doc. 1-3 at 21, 23, 25, 35; Doc. 72-1 at

upon the regulated industry and the public

nsequently, carry the

force of law. Council of S. Mountains, Inc. v. Donovan, 653 F.2d 573, 580 (D.C. Cir.
1981) (quoting National Helium Corp. v. Federal Energy Administration, 569 F.2d 1137,
1146 (Temp. Em. App. 1977)). Imposing on the cruise industry exhaustive,
indeterminate, inconsistent, and unclear requirements (each of which threatens
substantial penalty), the conditional sailing order likely is by definition capricious.
FCC v. Fox Television Stations, Inc., 556 U.S. 502, 541 (2009) (Stevens, J., dissenting)
s shifting and impermissibl
sh & Wildlife, Bureau of Land Mgmt., 273 F.3d
t was arbitrary and capricious for the Fish
and Wildlife Service to issue terms and conditions so vague as to preclude

reaction COVID-19 tests were positive, (2) that twenty-four people had been hospitalized, and (3)
that fifteen medical evacuations had occurred. (Doc. 1-3 at 11) Moreover, the conditional sailing
order discusses relatively recent acad
see Miccosukee Tribe of
Indians v. United States
unclear.

- 96 -

App. 100

to consider the
adequacy of measures by state and local governments was arbitrary and capricious.
According to Florida, the order relies on a generic, global generalization that all nonfederal measures are inherently inadequate to ensure public health and safety in the
cruise industry, a conclusion reached without investigation into the measures
adopted by the states, the local governments, or the cruise industry. (Doc. 9 at 16)
easonably found that state and local
governments cannot adequately regulate a ship whose operations are international
CDC further observes that the conditional
sailing order explicitly addresses and implements some of the measures proposed by

Florida identifies no regime adopted by the state or by the cruise industry that
adequately protects public health and safety in the cruise industry. (Doc. 31 at 36)
st be both reasonable and reasonably
Multicultural Media, Telecom & Internet Council v. Fed.
873 F.3d 932, 937 (D.C. Cir. 2017). In other words, an agency must provide some

Union, United Auto, Aerospace & Agr. Implement Workers of Am., UAW v. Pendergrass,
878 F.2d 389, 392 (D.C
for its choices among scientific predictions, we must still look for some articulation

- 97 -

App. 101

,

Because CDC enjoys heightened authority if regulating vessels arriving from
abroad, as discussed above, Section 70.2 obligates the director to make a
es taken by health authorities of any State . . . are
insufficient to prevent the spread of any of the communi
70.2, which emphasizes local health authorities, is intended to bridle the federal
government and to encourage federalism.
The conditional sailing order discusses
their public health response

itional sailing order finds
controlled sufficie
itional sailing order explains that under

Section 70.2 the director determines that state and local measur
travel interstate and internationally and
can move beyond the jurisdictional boundaries of any single state or local health

l dismissal of state and local health
measures fails to offer the type of reasoned finding required by Section 70.2. The
conditional sailing order says absolutely
taken by health authorities of any State.
determines that all non-federal measures are inherently
ships travel interstate and internationally, a determination that falls far short of
conducting a reasoned finding that the measures
icient to prevent contagion. Pendergrass, 878 F.2d at 392. In fact,
- 98 -

App. 102

ted measures more severe and extensive
than those of CDC in the conditional sailing order, CDC could still invoke the
finding necessary under Section 70.2.
The APA imposes an obli

actions which do not

scrupulously follow the regulations and procedures promulgated by the agency
Simmons v. Block, 782 F.2d 1545, 1550 (11th Ci
not at all a scrupulous attempt and, apparent
to follow regulations relies on only a conclusory and dubious but self-serving
generalization that non-federal measures are inherently insufficient to protect public
health and safety.

s. Organizations v. Occupational

Safety & Health Admin.
conclusory statements, such as those made throughout the Air Contaminants
Standard, are simply inadequate to support a finding of significant risk of material

Because CDC neither evaluates nor even mentions measures undertaken or
planned by the local health authorities of any state but, nevertheless, finds the
measures inherently and inescapably insufficient, the conditional sailing order lacks a
reasoned explanation of the insufficiency of those measures.

,

t unreasonable to require that the agency
if the agency is legally obligated to do
so). In a word, the condit
state and local health measures is arbitrary and capricious. Sierra Club v. U.S. Army
- 99 -

App. 103

Corps of Engineers, 464 F. Supp. 2d 1171, 1183 (M.D. Fla. 2006),

, 508 F.3d 1332

cy decision issued without adherence to its own
regulations must be overturned as arbitr

42

To recapitulate, although several of

remain unpersuasive

on this record, the conditional sailing order is arbitrary and capricious because the
order imposes vague and shifting (but binding) legal requirements and because the
order fails to offer any reasoned explanation about the inadequacy of local measures.
C. Count IV

the APA. According to Florida, the conditional sailing order (1) encumbers
individual rights and obligations, (2) consti
fails to provide notice and comment, and (4) improperly
provide notice and
comment because the conditional sailing orde

rule of prejudicial error might suggest that
Sierra Club v. Slater, 120 F.3d 623, 637
h a reasoned explanation was arguably immaterial
decision. Although addressed below, this finding

42

measure exceeding its authority. Thus, no further analysis of this issue is merited here.
only a few lines of the preliminary injunction motion and only as an alternative argument. (Doc. 25
Norton v. S. Utah Wilderness All.,
authority and is capricious precludes any need

- 100 -

App. 104

conditional sailing order m

dard; and because Florida

Although CDC attempts to frame the conditional sailing order as the
e conditional sailing order imposes in the first instance
a license requirement (among a litany of other requirements), which attaches to a
cruise vessel before leaving a U.S. port. Violation of the conditional sailing order
triggers a serious consequence, as discussed earlier. The conditional sailing order is a
rule and, moreover, the conditional sailing order acknowledges that, if the

APA therefore obligates CDC to treat the conditional sailing order as a rule and to
provide notice and comment. 5 U.S.C. § 553(b).
CDC published the request for information on July 20, 2020, and received
13,000 comments. 85 Fed. Reg. 44083. The conditional sailing order mentions the
subject of some comments

efully considered these
ing order. (Doc. 1-3 at 15) Yet the

conditional sailing order fails to address which measures
l sailing order fails to evaluate and respond to any
comment, and the conditional sailing orde
public health determinations on the best available science and not on public

sailing order insists that notice and co

ed because CDC has

already obtained public comme

(Doc. 1-3 at 19) And the
- 101 -

App. 105

to forgo notice and comment. Also, in support of the
conditional sailing order ex

procedures. (Doc. 1-3 at 19)
To satisfy its notice-and-comment obligations un
must consider and respond to significant comments received during the period for
, 575 U.S. 92, 96 (2015). Therefore,
the conditional sailing order violates the APA unless an exception applies.43
5 U.S.C. § 553(b)(3)(B).
wly construed and only reluctantly
44

Mack Trucks, Inc. v. EPA, 682 F.3d 87, 93 (D.C. Cir. 2012) (quoting

43

Little Sisters of the Poor Saints Peter & Paul Home v. Pennsylvania, 140 S. Ct.
2367, 2385 (2020), sufficient notice requires pu
substance of the proposed rule or a description of the subjects . . . [such that] the affected party

Little Sisters of the Poor
preventative measures relating to travel on crui

nt to apprise an affected party of the extensive
regulatory framework appearing in both the conditional sailing order and the technical instructions.
That is, the request for information provides notice of the subject matter (the resumption of sailing);
but CDC only tentatively and vaguely notes that the
regulatory framework.
44

See, e.g.,

Precedent demonstrates how infrequently the exception should receive acceptance.
, 655 F.2d 1153, 1158 (D.C. Cir. 1981)
, 702 F.3d 755, 767 (4th Cir. 2012)

- 102 -

App. 106

Util. Solid Waste Activities Grp. v. EPA, 236 F.3d 749, 754 (D.C. Cir. 2001)), excuses
Jifry v.
FAA, 370 F.3d 1174, 1179 (D.C. Cir. 2004).
mminent hazard to aircraft, persons, and
Jifry, 370 F.3d at 1179, or if

See, e.g., Council of the S. Mountains, Inc. v.
Donovan, 653 F.2d 573, 581 (D.C. Cir. 1981) (applying the exception to prevent
deaths in the mining industry);

, 51 F.3d 212,

214 (9th Cir. 1995) (permitting the exception in the wake of several helicopter
fatalities); see Util. Solid Waste Activities Grp. v. EPA
2001) (discussing the
invocation of the exception).

for good cause finds . . . that notice and public procedure thereon are . . . contrary to
45

But this exception typically applies to

financial regulations effectively thwarted by notice and comment,46

45

Other exceptions not relevant here also

5 U.S.C. § 553(b)(B).
46

See, e.g.,
1983) (finding good cause because the drastic economic harm of price discrimination and market
dislocation which a price control rule sought to prevent was likely to result if notice of price controls
were given in advance).

- 103 -

App. 107

ings of good cause is to
comment would be detrimental
Azar, 2020 WL 7640818, at *7 (D. Md. Dec. 23, 2020).
Typically, the facts and context of each
existed during enactment.

. Coop. v. FERC, 822 F.2d 1123, 1132

exists to bypass notice and comment
amid an imminent threat of
Jifry
attempting to avert financial manipulation or market distortions. DeRieux v. Five
Smiths, Inc., 499 F.2d 1321 (Temp. Emer. Ct. App. 1974), cert. denied, 419 U.S. 896
exists if the agen

tion does nothing

or otherwise remedy the emergency allegedly justifying the action. Mack Trucks,
n delay caused the
Nat. Res. Def. Council v.
Admin., 894 F.3d 95, 114 (2d Cir.

ise as a result of the

of notice and comment.
First, almost no one doubts that COVID-19 presents a legitimate health concern, and
almost no one doubts that the uncertainty was much greater in October 2020. HHS
declared COVID-19 a public health emergency early in 2020 and suspended cruises
- 104 -

App. 108

beginning in March 2020 through October 2020 under a series of no-sail orders. And
even the Cruise Line International Associat
group, which includes ninety-five percent of cruise vessels, voluntarily suspended
U.S. operations from April 2020 until October 31, 2020.47 Press Release, CLIA,
n-Going Cruise Line Members Announce Third
Voluntary Suspension of U.S. Operations (Aug. 5, 2020). Therefore, COVID-19 might
have constituted an acute health threat in October 2020, but the no-longer-new
r 2020, two-hundredand-thirty-two days after cruising ceased.
of Health & Hum. Servs., 2020 WL 7778037, at *13 (S.D.N.Y. 2020). If the existence
of a communicable disease alone permitte
seldom, if ever, need to comply with the statutory requ
dispense with notice and comment.
Exhibiting the same pattern of evasion, CDC published the request for
information more than three months before issuing the conditional sailing order.
85 Fed. Reg. 44083 (Jul. 2020). By September 21, 2020, CDC received roughly
13,000 comments. During that time, CDC had ample time to effect notice and
comment. Regeneron Pharms.
NPRM in April, when these effects were at their worst. It could have done the same

The Cruise Line International Association voluntarily extended the suspension further
until December 31, 2020. Press Release, CLIA,
Stringent Protocols - Voluntarily Extend Suspension of U.S. Operations (Nov. 3, 2020).
47

- 105 -

App. 109

in July 2020, when . . . COVID cases increased . . . . Delays after the MFN Order
suggest a lack of urgency, including the two months between the executive order
being announced and publicly

justifiably attempted to
ion in the original no-sail order (and perhaps even in

an extension), but by October 2020, after the cruise industry had been shut down for
avoid notice and comment must fail. Nat.
Res. Def. Council, 894 F.3d at 114 (holdi
the putative emergency); United States v. Gavrilovic, 551
F.2d 1099, 1105 (8th Cir. 19
was not based on an acute and immediate threat to public health . . . , but rather on
the specific threat posed
Next, the stated purpose
suspension of notice and comment un
nal sailing order purports to establish a
he benefits of this framework outweigh
the costs of not allowing cruise ships to sail
orders, the conditional sailing order contemplates a trade-off that invites more risk
than the no-sail orders, whic

no sailing. Accordingly,
ption by citing an emergency that the

conditional sailing order is not di

Mack Trucks, Inc. v.

EPA, 682 F.3d 87, 93 (D.C. Cir. 2012) (finding no good cause because the regulation

- 106 -

App. 110

that was issued without notice and comment failed to directly address the alleged

Finally, rulemaking is the business of trade-offs, and public health is one
among many considerations that should contribute to balancing competing interests.
Eliminating notice and comment from an a
ICKMAN & PIERCE,

ADMINISTRATIVE LAW TREATISE § 5.10 (6th ed. 2020).
regulatory reach of these rules, of course, the greater the necessity for public
, 655 F.2d 1153, 1156 (D.C.

48

Cir. 1981). This is especially true if an agency imposes criminal penalties for
violation of its rule. See United States v. Gavrilovic, 551 F.2d 1099, 1105 (8th Cir.1977)
is to make previously lawful conduct
unlawful and to impose criminal sanctions, the balance of these competing policies
imposes a heavy burden upon the agen
The conditional sailing order purports to expansively regulate an entire
industry and has a dramatic impact on
especially. (Doc. 1-3) (acknowledging that the Office of Information and Regulatory
Affairs characterizes the conditional sailing order as a

This is to say nothing of the additional
See HICKMAN AND PIERCE, ADMINISTRATIVE LAW TREATISE
§ 11.1 (6th ed. 2020) (describing the requirements for a major rule); Executive Order 13132 (1999)
48

substantial direct effects on the States, on the relationship between the national government and the
States, or on the distribution of power and responsi

- 107 -

App. 111

reasonably assert that the conditional sailing order, which touches billions of dollars
in the economy and hundreds of thousands
Mack Trucks, 682 F.3d at 94. And given the economic
importance and expansive reach of the regulation, the importance of participation
from the industry and public becomes more pronounced. CDC explains that the
, on extensive interaction with the cruise
31 at 41) But the cruise industry, including state ports,
has objected to the conditional sailing order for several months, and Florida initiated
this action in resistance to the conditional sailing order.

monologue, supported by the unconvincing
after which the agency failed to account to the cruise industry, to the states, and to
the public.
The conditional sailing order states dism
health determinations on the best availa
(Doc. 1-3 at 15) Although CDC certainly should base scientific determinations on
l sailing order and th

, 572 F.2d 377, 385 (2d Cir. 1978). Therefore, the APA requires
notice and comment. See

, 572 F.2d at 385 (rejecting the
lic participation wa

- 108 -

App. 112

would not have prevented reliance on
proceedings would have afforded the regulated parties an opportunity to participate
in rulemaking in light of the best available science and other pertinent considerations.

administrative duty.

, 572 F.2d at 385.

Finally, CDC has still initiated no notice and comment for either the
conditional sailing order or the series of
failure presents at least three problems. Fi
Kollett v. Harris, 619 F.2d 134 (1st Cir.
ale because the agency delayed fourteen
that any administrative action taken in
. . need only be temporary, pending public notice-and, 655 F.2d at 1157. Third, because

ry and public, the technical
instructions likely demand notice and comment. Council of S. Mountains, Inc. v.
Donovan, 653 F.2d 573, 580 (D.C. Cir. 1981) (quoting National Helium Corp. v. Federal
Energy Administration, 569 F.2d 1137, 1146 (Temp. Em. App. 1977)). The

- 109 -

App. 113

continually shifting stan

49

demonstrate the deficiencies both in the conditional
sustained failure to provide notice and comment.

, 655 F.2d

in the formulation of the final regulations governing inspecti
To excuse its oversights, CDC offers a gloss on the conditional sailing order
with a post hoc appeal to the doctrine

oc. 31 at 42); 5 U.S.C.

oversights are anything but
to suggest that the conditional sailing order was unimportant or minor in impact,
that position already met with rejection. To the extent that CDC argues that Florida
suffered no prejudice, that argument is
persuasively demonstrates injury to cruise companies, port authorities, states, and the
ction 553 of the APA, which might have

49
Also, the technical instructions say woefully little about how the proposed measures relate
to scientific data about preventing transmission. For example, to bypass a simulated voyage, a vessel
operator must attest that 98% of crew and 95% of passengers are vaccinated. But CDC fails to
explain why the vaccination rate is so much higher than the rate it deems sufficient to obtain so-

and May 2021, was stale.

C relies on scientific literature that, by April

On the subject of scientific data, the conditional sailing order also cites scientific evidence
supporting the need for measures to prevent COVID-19 (for example, high rates of COVID-19
infection and heightened transmission for a cruise vessel), but the conditional sailing order cites no
evidence supporting the efficacy of the measures imposed.

- 110 -

App. 114

avoided or mitigated some of the deficiencies in the conditional sailing order and
nstitutes prejudicial error.
IRREPARABLE INJURY
Although likely to succeed on the merits, Florida must establish that without a
preliminary injunction Florida faces a substantial likelihood of an irreparable injury.
Siegel v. LePore, 234 F.3d 1163, 1176 (11th Cir. 20
sine qua non
if a monetary remedy cannot offer relief. Sampson v. Murray, 415 U.S. 61, 88 (1974).
Further, Florida must face an actual and imminent injury, not a speculative or
remote injury. Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7 (2008); Northeastern
Contractors v. City of Jacksonville, 896 F.2d 1283, 1285
(11th Cir. 1990). And if adequate compensation or other corrective relief will
become available, Florida will avoid an irreparable injury and cannot justify a
preliminary injunction. Sampson v. Murray, 415 U.S. 61, 90 (1974). CDC argues that
Florida cannot establish an irreparable injury because Florida delayed beginning the
action, because Florida alleges an insignificant injury, and because Florida speculates
about its future injury.
First, CDC argues that Florida waited too long to begin the present action.
delay undercuts any sense of urgency,
and therefore, [Florida] fails to demonstrate a sufficient need for a preliminary
Seiko Kabushiki Kaisha v.
188 F. Supp. 2d 1350, 1356 (S.D. Fla. 2002) (Lenard, J.)). In other words, CDC
- 111 -

App. 115

concludes that if Florida sued shortly after the conditional sailing order became
effective (nearly eight months ago), Florida would not need a preliminary injunction
to save the summer cruise season. A

inary injunction of even only a few
litates against a finding of irreparable
able explanation that satisf
timing of this action. Wreal, LLC v. Amazon.com, Inc., 840 F.3d 1244, 1248 (11th Cir.
2016). For months after the initial no-sail order in early 2020, both the cruise
industry and Florida relied

sailing could expeditiously

resume. But between issuance of the conditional sailing order and April 2021, the
industry awaited from CDC the necessary implementing manuals, guidance, and
instruction. When the guidance finally arrived in April 2021, Florida sued
immediately. In sum, Florida not only behaved reasonably by relying on CDC until
April 2021 but also acted expeditiously after April 2021 and after the cruise season
became conclusively threatened. Wreal, LLC
NRDC v. Pena, 147 F.3d 1012, 1026 (D.C. Cir. 1998).
ncial injury cannot qualify as an
irreparable injury. (Doc. 31 at 19) CDC correctly notes that a financial injury is
usually compensable by a payment of money and is, therefore, nor irreparable.
Snook v. Tr. Co. of Georgia Bank of Savannah, 909 F.2d 480, 487 (11th Cir. 1990) (citing
Sampson v. Murray, 415 U.S. 61, 90 (1974)). But in an APA action sovereign
- 112 -

App. 116

immunity bars the recovery of monetary damages from the federal government.
at least millions of
irreparable. 5 U.S.C. § 702 (authorizing
., 715 F.3d 1268, 1289
ntext of preliminary injunctions, numerous courts have
held that the inability to recover monetary damages because of sovereign immunity
, 794 F.3d 1039,
1046 (9th Cir. 2015); Kentucky v. U.S. ex rel. Hagel, 759 F.3d 588, 599 (6th Cir. 2014);
(10th Cir. 2010); Iowa

Chamber of Commerce v. Edmondson

Utilities Bd. v. FCC, 109 F.3d 418, 426 (8th Cir. 1996); United States v. State of N.Y.,
708 F.2d 92, 93 (2d Cir. 1983); Georgia v. Pruitt, 326 F. Supp. 3d 1356, 1367 (S.D.
Ga. 2018) (Wood, J.). Also, by alleging in Count IV that CDC failed to provide
notice and comment, Florida arguably establishes irreparable injury. California v.
Azar, 911 F.3d 558, 581 (9th Cir. 2018) (citation omitted) (reaffirm
flowing from a procedural viol

ITServe All. Inc. v Scalia,

2020 WL 7074391, at
injunction may be issued solely on the grounds that a regulation was promulgated in

Relying mostly on non-binding precedent, almost all of which is outside the
Eleventh Circuit, CDC responds by arguing
to qualify as irreparable.

must arise to a
Air Transp.

p.-Imp. Bank of the U.S., 840 F. Supp. 2d 327, 335 (D.D.C.
- 113 -

App. 117

a plausibly alleges
an encompassing and cumbersome financial injury. Florida attaches economic
reports and declarations detailing millions of dollars in lost revenue if cruises cannot
sail. (Docs. 45-20; 45-21; 45-22; 45-23; 45-24; 45-25) CDC attempts to trivialize

budget (under that logic, a billion dolla
government). But Florida attaches econom

Odebrecht Const., Inc., 715 F. 3d at 1288 (remarking
ering whether an injury is
Florida attaches a study summarizing the

As a result of the activity of the cruise industry, Florida businesses
received just over $9.0 billion, or 36 percent of the direct expenditures
generated by the cruise industry in the United States. Due to the
absolute scale of the industry, direct expenditures in Florida impacted
just about all segments of the economy, including recreation and
amusement establishments, wholesalers of products purchased by cruise
lines, manufacturers of communications and navigation equipment,
producers of machinery and equipment such as engine parts, boilers,
laundry equipment and computers, manufacturers of fabricated metal
products such as locks and security equipment and business service
providers such as interior designers and computer services consultants
. . . . these direct expenditures generated total economic impacts of
almost 159,000 jobs and $8.1 billion in income throughout the Florida
during 2019.

y has lost more than $22 billion and
169,000 jobs since cruises and cargo ships have been unable to sail. (Doc. 45-2 at 28;
- 114 -

App. 118

Doc. 45-27) As long as some cruises remain unable to sail, at least a portion of this
financial loss will reduce state revenue, the effects of which compound owing to the

cruise industry faces uncertainty about when cruises can unequivocally resume
sailing, Florida faces an imminent and increasingly likely threat that at least part of
the cruise industry will abandon Florid
V.N.A. of Greater Tift Cty.,
Inc. v. Heckler, 711 F.2d 1020, 1034 (11th Cir. 1983) (considering the loss of a
business); Pizza Fusion Holdings, Inc. v. Burton Holdings LLC, 2015 WL 11197817, at *1
impending loss or financial ruin of
business constitutes i

Florida plausibly alleges a

Finally, CDC argues that Florida cannot establish irreparable injury because

phases. (Doc. 67 at 3; Doc. 72 at 4) Reporting the approval (as of June 4, 2021) of
port agreements for twenty-two vessels and two conditional sailing certificates, CDC
argues that Florida speculates about irre
72) As explained in the analysis of

ctly caused, at least in part, by the
conditional sailing order, which prevents some cruises from sailing or sailing

- 115 -

App. 119

nue and economy.
California v. Azar, 911 F.3d 558, 581 (9th Cir. 2018)
jury is not materially affected by the
fact that some cruises are undertaking to comply with the conditional sailing order.
As of June 4, 2021, CDC lists only eleven cruise ships ready to begin phase two (of
four phases) simulated voyages. CDC has scheduled these voyages to begin no
earlier than June 20, 2021, and several begin in August
cruise ships, if any, appear poised to qualify by late
summer to sail with a satisfactory complement of passengers. For all other ships, the
summer season remains almost assuredly lost. The conditional sailing order not only
impedes immediate cruising, but the conditional sailing order threatens the economic
feasibility of scheduling cruises under restricted sailing. Ships obtaining a
conditional sailing certific
which, among other things, prevent a cruise ship from offe
restrictions burden th
capacity for profitable sailing. (Doc. 56 at
that the conditional sailing order cripples the cruise indust
and to sail in a manner that avoids economic loss as a result of sailing. (Doc. 25
at 22) Owing to a disabled cruise industry, both obstacles impose an imminent and
irreparable financial injury on Florida.
The Cruise Lines International Association states:

- 116 -

App. 120

that nearly half a million Americans
ansportation operators to hotel,
restaurant, and retail workers, travel agents, and tens of thousands of
businesses that service cruise ships, are continuing to financially suffer
with no reasonable timeline provided

(Doc. 49- 9 at 2) Florida establishes an imminent, actual, and irreparable injury.
BALANCING OF THE EQUITIES AND THE PUBLIC INTEREST
Because Florida requests an injunction against an agency of the federal
government, the analysis of the balance of equities and the analysis of the public
interest merge. Nken v. Holder, 556 U.S. 418, 435 (2009); Swain v. Junior, 958 F.3d
1081, 1091 (11th Cir. 2020). Arguing that the prospective inju
health exceeds the ongoing financial injury to Florida and the economic injury to
sent the requirements imposed by the

COVID-19. (Doc. 31 at 44; Doc. 46-1 at 33) CDC not only fails to substantiate this
supposition with persuasive evidence, but CDC discounts the retreat of COVID-19,
the success of other similar industries, and the mitigation on measures that would
exist without the conditional sailing order.
States, including Florida, have crafted and implemented measured re-opening
plans that address both the public health risk and the economic damage associated
with COVID-19. And since early 2021, highly effective vaccines are available across
the United States. More than forty percent of United States residents (minors
included) are fully vaccinated.

- 117 -

App. 121

As of June 11, 2021, about sixty-four percent of adults have received at least
one dose of a vaccine. Fifty-three percent of adults are fully vaccinated.50 In an
eadily, states administer
more than a million vaccines a day. Recognizing the effectiveness of vaccines, CDC
rantine after cruise tr
vaccinated people can travel at low risk to
Governor Cuomo announced that, because
70% of New York adults are vaccinated,
can end.
stries confirms the success combating
COVID-19. Rather than shutting down other industries catering to large groups of

CDC could offer cruises) to promote the safe operation of hospitality and leisure

Doc. 45-6), CDC publishes guidance about the safe operation of a hotel, a casino,
h a venue permitted to accommodate
hundreds of, or thousands of, people for an extended time. Further, CDC offers
guidance to prevent the spread of COVID-19 on an airplane, which safely transports
thousands of people each day. (Doc. 45-11) The safe operation of comparable

50

https://covid.cdc.gov/covid-data-tracker/#vaccinations.

- 118 -

App. 122

industries strongly counsels against finding that moderating the conditional sailing
order would endanger the public health.
CDC responds by arguing that
particularly conducive to transmission of the
weakens this conclusion. CDC reports
e from a community with a medium prevalence of
COVID-19 and 50% of those passengers are fully vaccinated . . . modeling data
risk of introducing COVID-19 onto the ship has only
But the presence of COVID-19 in the
community decreases daily, and vaccinations co
introducing COVID-19 onto a ship decreases as COVID-19 abates. CDC relies on
blished, unrefereed, and undisclosed by
CDC and which reportedly offer only conclusory, modeling-based comparisons to
ations, which currently thrive without the
same restrictions imposed on cruises. (One supposes that if this data were
convincing, CDC in recent months might have revealed the study, the model, the
results, the methodology, and the researchers.)
Even absent the conditional sailing order, the cruise industry appears poised to
implement strong and proven safety measures for combating COVID-19. (Doc. 56
Doc. 45-10 at 7) The cruise industry not only maintains
a self-interest in offering safe cruises, but the cruise industry
g precautions the cruise industry proposed
- 119 -

App. 123

to CDC. (Doc. 25-10 at 7) Before the conditional sailing order, the industry formed
ic health experts to design
science-based solutions for mitigating and li
14) The Cruise Line International Association established mandatory COVID-19
protocols, which include testing, masks, distancing, and ventilation. (Doc. 56 at 19)
And in Florida, ports offer vaccination programs to support the cruise industry.
(Doc. 56 at 20) In sum, even as COVID-19 subsides, precautions persist and will
s (diminishing) spread.
The success containing COVID-19 in 2
utweigh the costs of
(Doc. 1-3 at 16) Cruises now safely sail all over the world with protocols designed to
minimize the spread of COVID-19. Since July 2020, more than 400,000 people have
sailed on cruises abroad. (Doc. 45-9; Doc. 45-10) In Europe, thousands sail on
cruises without debilitating infections of COVID-19. (Doc. 25-29 at 13) Although
citing examples of localized infection (or,
persons on cruise ships abroad, CDC fails to persuasively show that the infections
are not successfully confined or that the infections otherwise endanger a broadly
vaccinated group of passengers and the public. (Doc. 31-1 at 80) The availability of
vaccines and testing and the comparatively trivial incidence of infection on foreign
optimism about the safe
operation of sailing in the United States, which enjoys high rates of vaccination and
greatly enhanced, on-board containment mechanisms.
- 120 -

App. 124

With the advent of highly effective vaccines, with more than half of
adults fully vaccinated, with infection plummeting, with death from COVID-19
asymptotically approaching zero; with the benefit of effective therapeutics for
COVID-19; with masks, safe distancing, and sanitation; and with the successful
and safe re-opening of business, including airlines, sporting events, and other high
capacity venues, COVID-19 no longer thre
extent presented at the start of the pandemic or when CDC issued the conditional
ing order relies on stale data obtained to
justify the no-sail orders when the danger posed by COVID-19 was qualitatively and
quantitatively different from today. (D

the day. In 2019, more than thirteen million cruise passengers and crew embarked

Even if a fraction of

in 2021, as long as sailing

remains restricted or reduced, Florida suffers a derivative injury to revenue and to
the economy. Without the expeditious re
threatens to become permanent owing to the cruise in
(Docs. 45-10; 28; 29) of leaving Florida. All. for the Wild Rockies v. Cottrell, 632 F.3d
on the health of the local economy is a
proper consideration in the pu
of success on the merits ensures that a preliminary injunction would serve the
ally no public interest in the perpetuation
- 121 -

App. 125

League of Women Voters of United States v. Newby,
838 F.3d 1, 12 (D.C. Cir. 2016); Gordon v. Holder, 721 F.3d 638, 653 (D.C. Cir.
l law is always contrary to the public
United States v. Alabama, 691 F.3d 1269, 1301 (11th Cir. 2012)
utes and prerogatives are not in the public interest, and

Washington v. Reno, 35 F.3d 1093, 1103 (6th Cir. 1
interest in having governmental agencies abide by the federal laws that govern their
of harm and the public interest favors
Florida.
CONCLUSION
preliminary injunction. In brief, this
atutory standing to assert the claims in
the complaint. This order finds that Florida is highly likely to prevail on the merits
nditional sailing order and the implementing orders
exceed the authority delegated to CDC under Section 264(a). Alternatively, this
order (1) finds that, if Section 264(a) includes the comprehensive authority claimed
by CDC to promulgate and enforce regulations, Section 264(a) likely constitutes an
unconstitutional delegation of legislative power to CDC because the delegation fails
exercise of authority and
(2) finds that the Supreme Court seems likely to impose soon a more demanding
standard, which Section 264(a), as interpreted by CDC, is even more likely to fail.
- 122 -

App. 126

Additionally, this order determines that Florida is likely to prevail on at least one,
but perhaps not all, of the several other claims based on the APA.
success on the merits, (2) the imminent
threat of irreparable injury to Florida, (3) the comparative injury depending on
whether an injunction issues, and (4) the imminent and material threat to the public
GRANTED, and CDC is
PRELIMINARILY ENJOINED from enforcing against a cruise ship arriving in,
within, or departing from a port in Florida the conditional sailing order and the later
measures (technical guidelines, manuals, and the like). However, the preliminary
injunction is STAYED until 12:01 a.m. EDT on JULY 18, 2021, at which time the
conditional sailing order and the measures promulgated under the conditional sailing
order will persist as only a non-binding
when addressing the practices in other
similarly situated industries, such as airlines, railroads, hotels, casinos, sports venues,
buses, subways, and others. (Docs. 45-4; 45-5;45-6; 46-4)
However, to further safeguard the public
CDC may propose not later than JULY 2, 2021, a narrower injunction both
permitting cruise ships to sail timely
interpreted in this order. The motion for the proposed injunction must support the
proposed terms with current scientific eviden
ence, including methodology, raw data, analysis, and the
like and the names and qualifications of the scientists participating in the study,
- 123 -

App. 127

modeling, or the like. If CDC moves under this paragraph, Florida must respond
within seven days. A hearing will occur immediately after Fl
Additionally, if circumstances materially change at any time, either party can request
a hearing to modify this injunction, a hearing will occur immediately (within twentyfour hours, if necessary), and an order resolving the motion will issue immediately.
The parties are ordered to return to mediation before Magistrate Judge
Anthony Porcelli at a time and place ordered by Judge Porcelli and in accord with
the terms (including confidentiality) of the earlier mediation order (Doc. 51).
ORDERED in Tampa, Florida, on June 18, 2021.

- 124 -

App. 128

